<html>
<title> - THE STATE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
          THE STATE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2009

                               __________

                            Serial No. 111-1

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                   U.S. GOVERNMENT PRINTING OFFICE
48-415 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            February 4, 2009

                                                                   Page
The State of the U.S. Department of Veterans Affairs.............     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    32
Hon. Steve Buyer, Ranking Republican Member......................     2
    Prepared statement of Congressman Buyer......................    32
Hon. Corrine Brown...............................................     5
    Prepared statement of Congresswoman Brown....................    33
Hon. Vic Snyder..................................................     7
Hon. David P. Roe................................................    12
Hon. Stephanie Herseth Sandlin...................................    12
Hon. Brian P. Bilbray............................................    14
Hon. Harry E. Mitchell...........................................    14
    Prepared statement of Congressman Mitchell...................    33
Hon. Henry E. Brown, Jr..........................................    15
Hon. John J. Hall................................................    17
Hon. Cliff Stearns, prepared statement of........................    34
Hon. Ciro D. Rodriguez, prepared statement of....................    35
Hon. Jeff Miller, prepared statement of..........................    35
Hon. Joe Donnelly, prepared statement of.........................    36
Hon. Timothy J. Walz, prepared statement of......................    37
Hon. Glenn C. Nye, prepared statement of.........................    37

                               WITNESSES

U.S. Department of Veterans Affairs, Hon. Eric K. Shinseki, 
  Secretary......................................................     4
    Prepared statement of Secretary Shinseki.....................    38

                       SUBMISSION FOR THE RECORD

Kirkpatrick, Hon. Ann, a Representative in Congress from the 
  State of Arizona, statement....................................    39

                   MATERIAL SUBMITTED FOR THE RECORD

Post-hearing Questions and Responses for the Record:
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs, to 
      Hon. Eric K. Shinseki, Secretary, U.S. Department of 
      Veterans Affairs, letter dated February 13, 2009, 
      transmitting questions from Hon. Harry E. Mitchell, Hon. 
      Ciro D. Rodriguez, Hon. Joe Donnelly, Hon. Timothy J. Walz, 
      and Hon. Glenn C. Nye, and VA responses....................    41
    Hon. Steve Buyer, Ranking Republican Member, Committee on 
      Veterans' Affairs, to Hon. Eric K. Shinseki, Secretary, 
      U.S. Department of Veterans Affairs, letter dated February 
      9, 2009, and VA responses..................................    49
    Hon. Ciro D. Rodriguez, Member of Congress, Congress of the 
      United States, House of Representatives, to Hon. Eric K. 
      Shinseki, Secretary, U.S. Department of Veterans Affairs, 
      letter dated March 31, 2009, and response letter dated May 
      28, 2009...................................................    57


          THE STATE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2009

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.
    Present: Representatives Filner, Brown of Florida, Snyder, 
Michaud, Herseth Sandlin, Mitchell, Hall, Halvorson, Perriello, 
Teague, Rodriguez, Donnelly, Walz, Adler, Nye, Buyer, Stearns, 
Brown of South Carolina, Miller, Bilbray, Lamborn, Bilirakis, 
Buchanan, and Roe.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. We are pleased to open up our hearing to hear 
from our new Secretary, General Shinseki.
    Mr. Secretary, I think you're one of the first cabinet 
members on the Hill and we feel honored that you are here. Your 
reputation precedes you. We know you are a man of courage and 
intellectual honesty. You have been called a ``soldier's 
soldier,'' which is one of the highest accolades I think your 
troops can give to you, and we look to you to care for the 
veterans now under your command. We have seen some of your 
previous testimony and your confirmation hearing. We have had 
some conversations with you, and we are glad that you are here 
today.
    We have a great job to do, an important job, not only with 
our young men and women coming back from Iraq and Afghanistan, 
but we cannot forget the older veterans who made this country 
what it is today. And you have a big job before you. We intend 
to support you in that. We intend to make sure you have the 
resources to carry out your job and give you the backing that 
you need.
    I think you are familiar with many of the issues already, 
and you talked in your confirmation hearing about a 
transformation into a 21st century U.S. Department of Veterans 
Affairs (VA). We look forward to making sure that occurs and 
that every one of our brave young men and women and brave older 
men and women get all the care, attention, love, dignity, and 
honor that this Nation can give, and I know that you will lead 
us to do that.
    Mr. Buyer, I will yield to you for a few minutes and then 
we will hear from the Secretary.
    [The prepared statement of Chairman Filner appears on p. 
32.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you.
    Thank you, Mr. Secretary, for being here. We look forward 
to hearing from you as you present your Department's budget. I 
know from my tenure on the Armed Services Committee that you 
are a man of principle and you are a man that reflects the 
Army's values, and I think that is extremely important. I also 
want to compliment you on the selection of your predecessor 
years ago to lead the Health Affairs Department within the 
Army. And now you replace him as Secretary, and I only regret 
that we didn't have more time to have worked with him. He was a 
man of great experience. He brought a lot of talents and made a 
real difference in a short period of time, and I am quite 
certain he will be a valuable counsel to you. Don't hesitate to 
lean on him as you have done throughout the years.
    Even in the short time that I turned to him, when there 
were challenges and I think even some of the veterans service 
organizations (VSOs) would compliment his leadership. There is 
no moss on that man's stone. He is always moving.
    I was pleased to see the performance goals that you 
outlined. I think that is extremely important whenever you take 
over a great challenge. So those are enduring themes that I 
believe will be essential for you as you navigate at one of the 
most critical moments in the Department's history.
    I just want to touch on a few things. There are some 
obviously in front of us. One is the disability claims backlog. 
Congress asked for a disability commission. These are 
individuals that put their eyes on this with a lot of effort 
and it seems to be collecting dust, and it is very bothersome 
to me. We have the Dole-Shalala Commission presidential task 
force, and so there are a lot of people that have placed their 
eyes on these challenges; yet what we have is an absence of 
leadership.
    Richard Burr and I, we stepped forward and we introduced a 
bill. It is interesting in this town, anytime there is any form 
of leadership, the critic who lurks in the shadows is always 
very quick to attack. But this is one that requires an enjoined 
solution, whether from you, whether it is from us, whether it 
is with the VSOs. But at some point, it is one that requires 
real leadership, so I submit that to you.
    The other is building on the synergies of excellence 
between U.S. Department of Defense (DoD) and the VA. This is 
one that requires constant maintenance and also is an issue 
that will take up much of your time, whether it is the VA/DoD 
sharing of facilities, electronic medical records, or the 
benefits delivery at discharge.
    The other is the issue on collaboration with regard to how 
we construct VA facilities; Denver, Las Vegas, Charleston, 
Orlando, New Orleans, there are opportunities here and we need 
to break into a new paradigm on how we deliver our health 
services.
    The other is information technology (IT) consolidation. I 
am quite certain that the gargoyles that defend bureaucracies 
and the old way of doing business will be very eager to take 
advantage of your new leadership to try to convince you as to 
why we should return to the days of old in a de-centralized 
model on IT. I would ask of you to keep your eyes wide open as 
you step into this new position and seek the best of counsel 
here as to why this Committee on a unanimous basis has endorsed 
the centralized IT, and I just ask of you to keep your eyes on 
that.
    We also recognize that when we created legislation, we 
probably came in a little too strong with regard to our 
identifying of--we really wanted to know what you were spending 
at the VA on the IT budget, and I think we probably came in, 
Mr. Chairman, with a little too much specificity.
    And we will be more than willing to work with you how to 
build that transparency in a manner where your down-line 
leaders are able to do their jobs. So the Chairman and I, and 
the Committee, will work with you to do that. We just recognize 
that there are some failed major IT projects out there.
    On the third-party collections, you will be accepting 
leadership exerted by your predecessor in the build-out of the 
Consolidated Patient Accounting Centers (CPACs) on revenue 
cycle management. This is extremely important. The Chairman and 
I, and others of the Committee, have placed our eyes on this 
over the last 7 years, and it is the very best way that we can 
continue to increase our revenues. So please, it is within your 
discretion right now with regard to priority on how you want to 
do the CPAC. I know that the last conversation I had with your 
predecessor they had the West going last. You might want to 
relook at that, because that would probably be the greatest 
amount of revenue; so you might want to look at redoing the 
order with regard to that build-out.
    The other is please--off the heels and on your toes with 
regard to the energy initiatives. I was really pleased that he 
stepped forward and committed about $49 million on the 16 solar 
projects, and I am really anxious to see the order in which you 
are proceeding not only on solar, wind, and alternative fuel, 
but also with the construction of these mega solar super nova 
systems with regard to the heating of water and how that can be 
utilized at the health systems.
    The implementation of the GI Bill procurement reform.
    The last I want to touch on is the dental issue. And I want 
to thank the Chairman. He has been very helpful along with 
Chairman Ike Skelton to give me great latitude to jump really 
on the Army Dental Corps. It was when the commander of the Army 
Dental Corps told me that it was not their mission to take care 
of the National Guard as they returned from theater. What was 
happening was the Army was just turning them over to the VA, 
and that was wrong. To me, Army green is Army green, and if we 
are going to build a model that takes care of our equipment and 
we don't take care of our people, that was wrong. And that 
General really should be fortunate that I wasn't Chief of Staff 
of the Army because I would have sent him to pasture.
    Fortunately, what has happened I would like for you to know 
that the Army is leaning forward, the brigades that have been 
returning from October 1 on, now are taking care of those class 
3s, and about 90 percent of those are coming back in.
    So finally they have gotten the message. But the Army has 
used the VA as a bill payer. So I want to let you know about 
these kinds of things. They are leaning too much our way, and 
that is really sort of a budget issue and a leadership issue. 
But I look forward to working with specificity on a lot of 
these projects.
    With that I yield back.
    [The prepared statement of Congressman Buyer appears on 
p. 32.]
    The Chairman. Thank you, Mr. Buyer.
    Mr. Secretary, I don't have to tell you that the whole 
Nation is looking with a lot of hope to the Obama 
Administration, and certainly our 25 million veterans and their 
families are looking to you with that hope. We are confident--I 
know the President is confident, but we are also confident that 
you are going to fulfill those hopes. We look forward to 
hearing from you today. Your written statement will be made a 
part of the record, and you have the floor.

         STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY,

              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Secretary Shinseki. Mr. Chairman, Ranking Member Buyer, 
distinguished Members of this Veterans' Affairs Committee, I am 
very honored to be with you here today. Thank you for this 
opportunity to appear before you this morning and so early in 
the cycle.
    I am also most honored to be entrusted by President Obama 
with the responsibility of leading great professionals at the 
Department of Veterans Affairs and serving the men and women 
whom we and, in fact, all of us in this country owe so much. 
Generations of Americans who have done their duty, some of whom 
have seen this country through some of its darkest hours. And 
so to those veterans both there on the dais and those sitting 
back here in the audience and even some who may be watching 
these proceedings from remote locations in this country, thank 
you for your service. Thank you for your sacrifice.
    I am honored to be serving as your Secretary. And for me 
the privilege of leading the Department of Veterans Affairs is 
a noble calling. I willingly took this assignment. I see it as 
one that offers an opportunity for me to give back to those who 
have served in uniform, those who served with and for me, and 
those on whose shoulders all of us stood as we were growing up 
in the profession of arms.
    I would like to acknowledge the presence of some of our key 
veterans service organizations this morning. They are here 
representing many other veterans organizations who could not be 
here. Together, we share the mission of fulfilling Lincoln's 
charge of caring for him who shall have borne the battle and 
for his widow and his orphan. Their advice and support on how 
to do this better will always be advice that is welcome.
    I am committed to fulfilling President Obama's vision for 
transforming the Department of Veterans Affairs into a 21st 
Century organization worthy of those who, by their service and 
sacrifice, have kept this Nation free. This is a time of great 
change, even greater challenge. But it is also a time of 
opportunity. At least I see it that way. A time to reset the 
VA's vectors for the 21st century. And those vectors will be 
based on three fundamental principles to begin with, as far as 
I am concerned:
    We will be veterans centric. We will be results driven, and 
we will be forward looking. Our operating standards must 
embrace these fundamentals as the Department delivers on its 
obligation, obligation to provide veterans the highest quality 
care and services in a timely, consistent, and fair manner.
    First, veterans are the focus of all of our efforts. As our 
clients, they are the sole reason for our existence and our 
number one priority bar none. At the end of the day, the only 
true gauge of our success is the excellence of our programs and 
the timeliness of the services and benefits we provide. We will 
be measured by our accomplishments, not by our promises.
    Second, VA must be results oriented. We must put veterans 
first by first putting in place the management tools we need to 
achieve positive, well thought through initiatives and 
outcomes. I am convinced that if we are to achieve our goals, 
we must set clear objectives, create even clearer metrics and 
then follow up relentlessly. Success in this broad but 
foundational area is and will be a function of leadership, and 
it begins with me.
    Third, we must be forward looking. We must continually seek 
to challenge ourselves to accomplish our mission more 
effectively, more efficiently, more innovatively. Always 
rigorously mindful of husbanding our resources and using 
taxpayer dollars responsibly. VA will put a premium on working 
smart, leveraging best practices, cutting-edge technologies, 
and strong and determined leadership to better serve our 
veterans.
    To the Members of this Committee, the Department of 
Veterans Affairs has an opportunity to renew and strengthen the 
longstanding covenant between America and her veterans. We have 
a committed workforce whose professionals can and will 
undertake the kind of change that will restore this Department 
to preeminence in government. With their support and 
assistance, I am privileged to undertake this mission. And with 
your support, I am confident we will succeed.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Secretary Shinseki appears on p. 
38.]
    The Chairman. Thank you, Mr. Secretary, and we appreciate 
the time to deal with some of our Members' concerns.
    We will start with Ms. Brown from Florida.

            OPENING STATEMENT OF HON. CORRINE BROWN

    Ms. Brown of Florida. Thank you. Thank you, Mr. Chairman, 
for holding this hearing today. And I want to welcome the 
Secretary.
    Mr. Secretary, thank you for coming here today. And I am 
pleased with your testimony where you said you have much yet to 
learn about veterans' affairs. I am pleased that you admit that 
you do not have all of the answers.
    And let me just tell you, the Members of this Committee do 
not have all of the answers either, but we are willing to work 
together to make things better.
    And I always like to quote the first President of the 
United States, George Washington, the willingness with which 
our young people are likely to serve in any war, no matter how 
justified, shall be directly proportional as to how they 
perceive the veterans of earlier wars were treated and 
appreciated by their country.
    I am looking forward to working with my colleagues on this 
Committee, which I am very proud of. It has always been 
bipartisan. When a person goes to war to served the country, it 
does not matter whether they are Democrat or Republican, they 
are serving our country and we as Members of the Veterans' 
Affairs Committee, and I have been on this Committee for 17 
years, have always worked to that end. And I am looking forward 
to working with you.
    And I personally want to extend an invitation to you to 
come to Florida. You have not been to Florida since basic 
training and we know how many years ago that was. So things 
have changed in Florida and we are looking forward to you 
coming and meeting with our veterans. I am glad to get you the 
first invitation before anyone else. Thank you.
    I yield back the balance of my time.
    [The prepared statement of Congresswoman Brown appears on 
p. 33.]
    The Chairman. I hope you brought your travel consultant 
with you, Mr. Secretary. I think you will be receiving many 
invitations.
    Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. At this point then, 
we can ask questions?
    General, thank you very much for serving. We are honored to 
have your leadership and your background in this position. And 
there have been great leaders before you, but I know you will 
be serving in a high capacity and we look forward to it.
    The Ranking Member, Mr. Buyer, talked a little bit about IT 
and I just want to follow a little bit along this line.
    The goals of VA FLITE are to implement a One-VA information 
technology framework that enables the consolidation of IT 
solutions and the creation of cross-cutting common services to 
support the integration of information across business lines 
and provide secure, consistent, reliable, and accurate 
information to all interested parties, improve the overall 
governance and performance of VA by applying sound business 
principles, ensuring accountability, employing resources 
effectively through enhanced capital asset management, 
acquisition practices, and strategy sources, and linking 
strategy planning to budgeting and performance.
    My question is, given the new Administration's focus on IT, 
President Obama has talked about using IT across the lines in 
health care to create a more efficient government, how will the 
VA leverage IT to modernize and drive more standardization 
which increase productivity and efficiency? For example, how 
will you use IT to have better access to data, to make quicker, 
more informed decisions, and do you see IT as being critical to 
improving the mission of the VA to provide better health care 
and benefits to our veterans?
    Secretary Shinseki. Thank you, Congressman.
    In answering your question, I will try to touch on what the 
Ranking Member also raised.
    Let me just give you a picture of what the disability 
claims process looks like. If you were to walk into one of our 
rooms where adjudication or decisions are being made about 
disability for veterans, you would see individuals sitting at a 
desk with stacks of paper that go up halfway to the ceiling. 
And as they finish one pile, another pile comes in.
    There are 11,100 people doing this today for the Veterans 
Affairs Department, good people. It is hard to do this rather 
challenging job in which they are trying to apply judgment to 
situations that occurred years ago and, in some cases, 
situations that they do not have a full appreciation for the 
context of, combat.
    Eleven thousand one hundred people equates to the 82nd 
Airborne Division. That is sort of my reference point here. If 
we do not take this and create a paperless process, I will 
report a year from now that we hired more people to do this. In 
the last 2 years, we have hired 4,000 additional adjudicators. 
This year, we are hiring another 1,100 to address the backlog 
problem.
    In my opinion, this is a brute-force solution and we need 
to very quickly take this into an IT format that allows us to 
do timely, accurate, consistent decisionmaking on behalf of our 
veterans. And this is part of what the backlog is about.
    And I will also tell you in the other part of the 
Department of Veterans Affairs, we have an electronic medical 
record that is probably well-respected and complimented by 
others in the medical profession. And so some place between 
these two applications of information technology we have got to 
bring goodness to what we live with day to day in the VA.
    Mr. Stearns. General, let me just follow-up. You mentioned 
the idea of a paperless electronic system certainly with the 
benefits claim system. Part of your whole answer obviously 
includes training.
    And I know it is too early, but do you have any idea? Are 
you going to try and put a benchmark in place when we are going 
to have a paperless electronic benefits claim system?
    Secretary Shinseki. I will share with you the benchmark 
that has been shared with me in the first 2 weeks of my 
arrival. That is 2012.
    Mr. Stearns. Okay.
    Secretary Shinseki. I do not know whether that is a----
    Mr. Stearns. Realistic?
    Secretary Shinseki [continuing]. Good date or not. I have 
not gotten into what it will take us to get there. But my 
intent is to get to a paperless solution here as soon as 
possible.
    Mr. Stearns. Thank you, Mr. Chairman.
    Secretary Shinseki. And that will take investment, of 
course, in information technology, significant. I have also 
drafted, and it is in final staffing, a policy letter to the 
Department that says I support and will continue the 
centralization of IT within the Department. So that should be 
signed and out of here in about a week.
    The Chairman. Thank you, Mr. Stearns.
    Mr. Snyder.

              OPENING STATEMENT OF HON. VIC SNYDER

    Mr. Snyder. Thank you, Mr. Secretary. I appreciate you 
being here. And I am going to be very brief and let somebody 
else ask questions also.
    But following up on this conversation of IT, you referred 
to the stack of files sitting on the desk, so obviously you 
have done some tours already and visited some facilities. But 
have you had occasion to go into the file room?
    I would encourage you on your next visit to an area or any 
time you go to visit to have them take you into the file room. 
It is almost dangerous as some of these file rooms are 
overwhelmed by individual files that will literally be three 
and four and five volumes.
    And I am told that a lot of it is that there will be 
something on the Internet that will be applicable to a specific 
illness or injury. It will get printed out. The veteran will 
request it be added to the file and the files just keep growing 
and growing and growing.
    But it is ironic, I think, that information technology has 
in some ways contributed to the thickness of the files because 
there is so much information out there. But we have got to get 
a handle on that whole thing of how you store this stuff and 
what you are going to do with it. But I would encourage you to 
visit the file rooms also.
    I just want to make three quick points that I think that 
our Chairman and Ranking Member had mentioned them.
    The GI Bill is so important to every American, but 
certainly every Member of this Committee. And I think once 
again the GI Bill has the potential of transforming America at 
this very important time. And you are going to be the key 
person seeing that that happens. And I know this Committee is 
interested in working along with you.
    Medical research, as you know from your past experience, 
there is not many good things about wars, but one of them is 
that we learn about things medically and there are 
opportunities now if we apply money appropriately and in 
adequate amounts to really do some good for a lot of people and 
families in terms of finding new ways of dealing with things 
like post-traumatic stress disorder (PTSD) and traumatic brain 
injury (TBI), but other things also. And I hope that you will 
be an advocate for medical research within the VA system.
    And, finally, you have inherited America's problems. We 
want you to provide perfect health care in all areas, whether 
it is for PTSD or amputees or whatever it is, when we, in fact, 
as a country have not solved that problem. And I think you 
should feel free to lay it back on the Congress, which is, you 
know, it would be easier for us if we actually had a network of 
mental health services throughout America, including rural 
America, including under-served areas, and let us know when our 
American health care system is part of a problem that you have 
inherited.
    And I think it is going to be hard for you to have the 
level of care you want for every veteran until we as a country 
come to terms with what I think President Obama wants to do and 
address the health care issues that we have.
    But thank you for your service once again. We certainly 
look forward to working with you.
    The Chairman. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Secretary, it was a pleasure visiting with you. And we 
do look forward to hosting you in Florida when you have the 
opportunity to come down.
    Following on to Dr. Snyder's comments in regards to medical 
research, there are even some exciting things going on down in 
the panhandle right now with hyperbaric oxygen therapy for TBI 
folks. And we are real excited there with some of the cutting-
edge stuff going on down there with some of things that were 
talked about in October in the Consensus Conference up here in 
Washington.
    Mr. Stearns was talking about IT and the issues of medical 
records. And I think we all agree that that is an extremely 
important thing and certainly should lend a great chance of 
solving some of the backlog, too, but we know that it is not 
going to be implemented quickly. But we do know that it is very 
important. I think we all are committed to helping you meet 
that goal if not by the date, prior to.
    But one of the other areas that you may see or even pick 
one stumbling block that is out there for the transition for 
military personnel from DoD to VA, what would you see as one or 
a couple?
    Secretary Shinseki. Well, I would say that I will begin 
with leadership. If this is going to happen faster and at 
higher quality than is happening now, and by the way, we have 
made tremendous progress in the last year to 18 months thanks 
to the leadership of Secretary Peake and others, but this is 
not a technical issue in my opinion, and so if it is going to 
be solved any faster, it is going to take leadership.
    Last Friday, I requested and had a personal meeting with 
the Secretary of Defense and we both agreed that in this 
interim when he and I are both sort of without deputies, and 
the two deputies chair the Senior Oversight Committee that is 
looking specifically at how to transition active-duty personnel 
into the ranks of the VA, he and I agreed that we would chair 
the next meeting which will occur sometimes this month and 
maybe the next two meetings personally to provide the 
leadership, establish the priorities, and keep the momentum on 
finding solutions for what seems difficult right now.
    A single electronic medical record is something I would be 
interested in working on with him. An individual enters the 
ranks as a youngster and stays for several years or stays for 
20 and comes to us as a veteran. Those records ought to be 
transferrable and ought to be accurate and complete and not 
just medical records but personnel records as well because the 
personnel records are also part of the disability adjudication 
process.
    If we can get to this agreement on what an electronic 
medical record looks like, we will solve the challenges we are 
wrestling with today where we have two different records.
    And I would add that I have asked about the relative 
qualities of both and I am told that the medical record that is 
used in the Department of Veterans Affairs is very highly 
regarded both in Veterans Affairs but also in the military 
departments.
    And so I went and sat with a couple of doctors here 
locally, the military doctors at Walter Reed, a small sample of 
three. Everyone said VistA is the way to go. VistA happens to 
be the VA's version.
    And so, I think if you put the issue before medical 
professionals, they can come to an agreement what a requirement 
for a medical record is. Once we get that, we can put then the 
smart people with the technical skills to be able to deliver 
what we think works. When we do that, we will be able to make 
this seamless transfer of information.
    But to get to that point of having the single electronic 
medical record, single personnel record, is going to take 
leadership. And I think that is where Secretary Gates and I can 
do a lot to leverage better and faster outcomes than we are 
currently facing.
    Mr. Miller. Thank you, Mr. Secretary.
    Also, I would like to ask unanimous consent to enter my 
statement into the record as well.
    The Chairman. Without objection, all Members' statements 
will be entered into the record.
    [The prepared statement of Congressman Miller appears on 
p. 35.]
    The Chairman. Mr. Michaud Chairs our Health Subcommittee. 
Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, for having this hearing.
    I want to thank you as well, Mr. Secretary, for coming here 
and congratulations. I look forward to working with you over 
the next couple of years.
    I have a couple of questions. There has been a lot of time 
about the stimulus package and the economy.
    My first question deals with Priority 8 veterans. If you 
look at what is happening out in the real world, if you have a 
factory that shuts down, you have a lot of workers who are 
veterans who do not utilize the VA system. They do not need to 
because they have good health care at the place where they 
work.
    My question is, once they get laid off and need health 
care, they go to the VA system. When they look at the 
application, what they have made during the previous years' 
wages, they get denied. Then they appeal it. Then they get 
accepted.
    My question is, is there a way they can get accepted the 
first time around because their economic status has changed? 
That is my first question.
    My second question is, we have done a lot over the years 
with rural health care issues and access to health care. One of 
the biggest complaints we hear is veterans' in rural areas 
being able to get access to health care when they need it.
    Under the 2004 Capital Asset Realignment for Enhanced 
Services (CARES) process, they have brought forward, access 
points and new hospital facilities.
    My second question is, do you think we ought to revisit the 
CARES process to make sure that it is still valid. If so, is 
there a way that we can speed up that process, i.e., if there 
is an access point in a rural area and you have a rural 
hospital or a federally qualified health care clinic in that 
rural area, would it not make more sense to work 
collaboratively with them to get access in that particular 
rural area?
    And my last and final question. Now that the campaign is 
over, you heard the Chairman talk about hope and everyone is 
really optimistic with the new Administration moving forward. A 
lot of campaign promises were made during the election cycle. 
One of the issues that I heard the President talk about is 
taking care of our veterans' the funding issues.
    Funding is only one component of it. The second component 
of funding is to make sure funding is on time, whether it is 
some type of mandatory funding, advance budgeting, or some type 
of assured funding, whatever you want to call it.
    What is your feeling on an advance budget for the VA system 
and how quickly can we get that moving? Those are the three 
questions.
    Secretary Shinseki. Congressman, just very quickly on the 
Priority 8s, I am still sizing the population here. Today at 
least, I do not have a good feel for what it is, but we are 
going to begin including Priority 8s based on the funding and 
support Congress provided last year. And that will begin 
sometime this summer. We anticipate about 266,000 Priority 8 
veterans being picked up as a result of this.
    As we look at the Priority 8 population, the economic 
downturn you described is going to affect folks in the upper 
seven priority levels as well. And there are veterans in those 
categories who are not using our services today who may or may 
not be enrolled.
    My guess is we are going to see some movement in some of 
those categories as well. And so even as we think about the 
impact to Priority 8s, there is a broader range of higher 
priorities that we have to be sensitive to. And I have got to 
try to get a handle on that as we go forward.
    But Priority 8s will begin this year, based on the funding 
we are provided. And probably the July timeframe you will see 
that.
    Rural health, just a tough issue. And I know there are many 
locations here that go from rural to very highly rural. And as 
I said earlier, I am trying to ensure that sitting in 
Washington and not trying to fine tune things out there with 
thousand mile screwdriver. I will have to go out and listen and 
find out.
    But I think both rural health and our concerns about not 
understanding our mental health challenges as well has caused 
the VA to put a lot of energy into coming up with what I think 
are fairly creative solutions and not just hospitals, but 
health centers and outpatient clinics and Vet Centers and 
mobile vans, 50 of them, that provide both primary care in a 
limited way but also health care.
    And these opportunities allow us to address some of the 
rural challenges. Contracting is an opportunity as well with 
local primary care providers. My only concern here would be 
that we maintain the standards that a veteran would find in any 
VA facility. And if we can do that, we will try to address 
those concerns as well.
    I forgot the third issue.
    Mr. Michaud. Advance funding.
    Secretary Shinseki. I would say just up front my preference 
would be for a timely budget. And I will assure you I will do 
my part to get a mature request from the VA into the President 
in time. And I have been assured that he will support funding 
for VA medical.
    And in a prior life, I lived with continuing resolutions 
and I know full well the impact that they bring. And so timely 
budgets would be my preference. If that is not possible, I am 
sure there will be discussion about other options.
    The Chairman. Thank you, Mr. Michaud.
    We welcome Mr. Roe to our Committee, and you have the floor 
for any comments you would like to make.

             OPENING STATEMENT OF HON. DAVID P. ROE

    Mr. Roe. General, congratulations.
    I remember when I was in the service, I served as a medical 
officer in the 2nd Infantry Division and this piece of paper 
was your medical record. You carried it around. And we have 
some experience locally, you are correct, that the VA medical 
records system is a terrific system, and look forward to 
working with you.
    I have had the privilege, of the pain, I should say, of 
going through and converting our office to an electronic 
medical record, but it is an advantage and you can handle data 
much better.
    In my previous life, I was the Mayor of our city and we 
converted all of our police to electronic, so there is no paper 
at all. It has been a tremendous success.
    I really look forward to working with you. We have a huge 
VA campus in my district and I am going to make the third 
invitation here to invite you to Tennessee to visit.
    There is no higher calling in my mind than to take care of 
our veterans who protect our Nation. And it is a privilege to 
be on this Committee and to work with a person of your caliber. 
And I look forward to doing that.
    I also will point out that already in our local VA, it is 
completely heated and cooled by renewable energy. We use a 
landfill and treat the methane and the entire campus is heated 
and cooled by renewables.
    So this is something I would like to implement in other VA 
facilities, and look forward to working with you.
    I think we have something to offer as far as my background 
as a physician to work with some of these issues. And there are 
a lot of issues out there. There is no question about it.
    One in particular, there are people who do not meet the 
income threshold in our area, who make a little bit too much 
money, but do not work in a job that has health insurance. And 
I really believe we need to help those veterans. It is a 
tremendous problem and may be more a national problem as 
pointed out also.
    But we have a sheriff in a local county that I represent 
who the county does not provide health insurance and he cannot 
get in the VA. He is an honorably discharged veteran, 4 years 
in the military, in the Army, and cannot get in. That is wrong. 
And I would like to see that corrected.
    So these are just a few comments for your consideration. 
Thank you very much. I think we certainly have a great 
Secretary to work with.
    The Chairman. Thank you, Mr. Roe.
    The Chair of our Economic Opportunity Subcommittee, Ms. 
Herseth Sandlin.

      OPENING STATEMENT OF HON. STEPHANIE HERSETH SANDLIN

    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your testimony today. 
Congratulations again on your recent appointment. And thank you 
for your many years of military service.
    It was a pleasure to meet with you last week. And as others 
have done, I extend the invitation to you once again as I did 
last week to South Dakota understanding that the summer months 
would be preferable than the dead of winter in South Dakota.
    But I want to reiterate just a couple of items that we 
discussed and bring two others to your attention.
    We did talk about the post GI Bill, Post-9/11 GI Bill and 
the August 2009 deadline. And as we work to achieve that goal, 
as you know, the week of February 26th, the Economic 
Opportunity Subcommittee will be having a hearing to evaluate 
both the short-term and long-term goals and where those time 
tables are and the strategies for implementing the new 
veterans' education benefits.
    And we also discussed the VA facility leasing initiative, 
community-based outreach clinics (CBOCs), as you know, and Mr. 
Michaud pointed out, are so important to highly rural areas, 
advance funding, as well as ``The Women Veterans Health Care 
Improvement Act.''
    And I appreciated your comments and thoughts on a variety 
of issues, including the PTSD conversation that we had last 
week as well.
    Two other issues that I wanted to bring to your attention 
are long-term care and the polytrauma rehabilitation centers 
within the VA health system.
    The number of veterans 85 or older is projected to 
increased 110 percent between 2000 and 2020. Estimates indicate 
that this number will peak in 2012. And I believe meeting the 
long-term health care needs of our Nation's veterans is one of 
the most important and difficult challenges facing the VA 
today. And I hope that you and your staff will work with this 
Committee as we develop a comprehensive, strategic plan for 
long-term care.
    The other issue, as you know, with the polytrauma 
rehabilitation centers and the important work that they have 
been doing, particularly in working with our wounded warriors 
from the wars in Iraq and Afghanistan that have produced 
thousands of severely wounded active-duty servicemembers and 
veterans, many of the veterans receive treatment at one of 
these four centers. And for the most part, these centers are 
providing extraordinary care.
    The VA, however, I think, needs to develop guidelines that 
ensure that the polytrauma centers are not prematurely moving 
patients out of the centers and into long-term care before they 
reach optimal function given that individual's potential 
through rehabilitation.
    And my opinion stems from an experience that one of my 
constituents had. He received a traumatic brain injury from an 
improvised explosive device (IED) in December of 2005 in Iraq. 
And he was informed that he would be transferred out of the 
Minneapolis Polytrauma Center and into a long-term care 
facility before his family believed he had received the level 
of rehabilitative care that he deserved. And I agreed with 
them.
    And at the time, based on my conversations with the family, 
their terrible experience with the caseworker that was assigned 
to them at the time, and my concerns that this was another 
perhaps budget issue because the Department of Defense was not 
paying because he was still active duty, and the polytrauma 
center basically said if he has not achieved a certain level 
after 90 days, we are moving him.
    And we were able to intervene with the Army and worked with 
the VA as well and got him into a private rehabilitation 
center. And this constituent made dramatic improvement in a 
matter of weeks that he had not been making in the Polytrauma 
Center in Minneapolis. And he has now been able to return home 
and improves his functioning every week and every month.
    And so I just wanted to bring this issue to your attention 
in terms of the importance of those guidelines, that we are not 
giving up on many of these vulnerable young men and women and 
prematurely moving them into long-term care based on some 
fairly arbitrary standards that I think this particular family 
that I represent was dealing with at the time.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Madam Chair.
    Mr. Bilbray.

           OPENING STATEMENT OF HON. BRIAN P. BILBRAY

    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate the time we were able to spend 
together.
    I think, Mr. Chairman, I have had the pleasure of having a 
very frank and open discussion with the Secretary. And I have 
to say that I know a lot of Members are very concerned about 
rural services, whatever, and I would just like to assure the 
rest of the Committee that anybody who has grown up in one of 
the out islands in Hawaii knows the challenges of being 
provided all the essential services and the logistical 
challenges there.
    And I think the Secretary brings a personal experience with 
the challenges as growing up in one of the out islands that I 
think all of you will appreciate if a major concern is rural 
services.
    So, Mr. Chairman, I yield back.
    The Chairman. Thank you, Mr. Bilbray.
    And the Chair of our Oversight Subcommittee, Mr. Mitchell.

          OPENING STATEMENT OF HON. HARRY E. MITCHELL

    Mr. Mitchell. Thank you, Mr. Chairman.
    And I want to welcome Secretary Shinseki and thank him for 
appearing before our Committee.
    Mr. Secretary, given your long and dedicated service to the 
U.S. Army, I know that veterans will be well served by your 
leadership.
    The Subcommittee on Oversight and Investigations, which I 
am honored to chair, has focused on a number of issues, 
including VA outreach, record sharing with the Department of 
Defense, and implementation of effective information 
technology.
    At a time when less than 8 million of our Nation's 25 
million veterans are enrolled in the VA, we have pressed the VA 
to do outreach to the remaining 17 million. We asked the VA to 
find ways to bring the VA to these veterans. And the VA has 
since begun using modern media tools to do so and I believe 
this was a great step in the right direction.
    And turning to the records sharing, the VA and the 
Department of Defense have been working on shared electronic 
medical records for the last 20 years and much progress has 
been made in the last 2. A commitment from both departments 
will be required to finish this job.
    And finally let me say that I believe when the VA and its 
dedicated workforce of public servants are doing their best, 
they can provide excellent health care and timely benefits. 
However, the VA needs strong leadership to solve significant 
management problems.
    The Department's financial inventory management systems are 
completely inadequate and its outside auditor has found 
material control weaknesses for 3 years in a row. With enhanced 
information technology systems, the VA's management will need 
to implement a high standard of achievement and help employees 
to reach it.
    And beyond these three issues, there are many challenges 
which face us, including the implementation, as has been 
mentioned before, of the GI Bill, sorting through miles of 
disability claims. And we all have our work cut out for us.
    But, Mr. Chairman, with your leadership and with the 
leadership of Secretary Shinseki and the VA, I believe that we 
can make great progress. And I yield back.
    [The prepared statement of Congressman Mitchell appears on 
p. 33.]
    The Chairman. Thank you, Mr. Chairman.
    Mr. Brown.

         OPENING STATEMENT OF HON. HENRY E. BROWN, JR.

    Mr. Brown of South Carolina. Thank you, Mr. Chair.
    And thank you, Mr. Secretary, for being here today.
    This is my 9th year on the Veterans' Committee and I serve 
now as the Ranking Member on the Health Subcommittee. And so 
health care for our veterans is pretty important for 
Charleston, South Carolina, and my district down along the 
coast.
    And I guess as far as the whole Nation as a whole, we 
certainly want to keep in mind those veterans that have paid 
the price for our freedom. And we certainly want to be there 
for them when their needs are there.
    And one of the things that we are working with down in 
Charleston and which we hope would be a model for the country 
is to try to collaborate as much health care delivery as 
possible. We recognize that sophistication now of the health 
care delivery for those veterans is coming back under much more 
extreme conditions than they were in previous conflicts. And so 
we want to be as flexible and as creative as possible.
    And so one of the projects that we have been working on is 
to try to bring more collaboration between the VA community and 
the other health care deliveries around the country.
    And more specific, we have been working with the Medical 
University of South Carolina to try to draw the strength from 
both of those health care delivery systems to better benefit 
the health care delivery of our veterans.
    And so we have gone through the process of establishing 
some of the reasons that we can combine, you know, some of the 
resources. And we, even as we speak, the Medical University is 
in the process of actually replacing all of their current 
campus.
    And what we were hoping to do is include the VA hospital 
into that development plan. In fact, we were able to get $36.8 
million in the reauthorization bill. And so that we hope that 
somehow that we can continue to move that forward because of 
the timeliness of the development of the Medical University.
    So we hope that you would be supportive of that effort and 
any information we might be able to bring you up to date on, we 
would be happy to do so.
    Thank you for your service.
    The Chairman. Thank you, Mr. Brown.
    Secretary Shinseki. Mr. Chairman----
    The Chairman. Please.
    Secretary Shinseki [continuing]. May I make a comment?
    The Chairman. Yes, of course.
    Secretary Shinseki. I think most Members know we have 153 
VA hospitals across the country and well in excess of 100 of 
them are affiliated with medical schools. And I am told that 50 
percent of the physicians in this country have come through a 
VA experience.
    I think it is important. I mentioned providing leadership 
in the area of regaining our position as well-respected in this 
country and the health care business. I think that affiliation 
is an important part of it and we will continue to do that.
    And to Mr. Buyer's comment, we ought to also look for where 
it makes sense to have an affiliation with DoD activities and 
see if we cannot harness talent, creativity, and perhaps save 
on funding for some of these initiatives.
    And I know there is legislation that sort of dictates how 
we might be able to do this, but I think willing minds would be 
able to help us get more energy out of this.
    I know when I came through the VA as a youngster out in 
Hawaii and dealing with an issue, as an amputee dealing with a 
surgical procedure, I must tell you, and this was in a military 
medical center, I must tell you that I have watched what the VA 
has done in terms of research and creative solutions.
    The Seattle Foot that allows amputees to run was designed, 
I am told, in the VA. And I think if we can continue to have 
these kinds of successes, it will benefit the Nation at large 
and certainly benefit the military where we see a lot of 
youngsters now being able to stay in the military because they 
choose to and because they have been given functionality back, 
not just form, but functionality.
    Mr. Brown of South Carolina. Thank you very much for that 
support. And we look forward to working with you.
    I know we also have a DoD/VA joint outpatient clinic in 
Charleston, South Carolina, and so we are looking forward to 
seeing how that is going to actually operate too. So thank you 
very much.
    The Chairman. Thank you, Mr. Brown.
    The Chairman of our Disability Assistance and Memorial 
Affairs Subcommittee, Mr. Hall.

             OPENING STATEMENT OF HON. JOHN J. HALL

    Mr. Hall. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your service and now for 
your willingness to serve again in this most important time.
    We had the opportunity to speak before and I had the 
opportunity and will again extend the congratulations of the 
West Point community. And they and the 70,000 or so veterans of 
the 19th District in New York and all the vets of New York 
State, I think, are looking forward to your taking on the 
challenges that you have described and you have heard us 
talking about.
    There are a couple of things I wanted to mention, in 
particular one that just came from a conversation I had this 
morning at the Military Association of New York breakfast with 
some Guard officers who are working on 30-day, 60-day, 90-day 
interviews with returning National Guard troops and their 
families who were coming back from Iraq and Afghanistan and 
having counselors interview the families separately in one room 
and the soldiers in another to try to assess the problems of 
readjustment, in particular PTSD. One of the priorities that I 
hope we will succeed in the Subcommittee's work this term in 
addressing is to provide the presumptive service connection for 
PTSD, for those who have the diagnosis by the doctor or 
psychiatrist, diagnoses a veteran as suffering from PTSD and 
they served in a war zone as defined by the Secretary or in an 
area of hostilities, that they do not have to jump through any 
hurdles or, you know, through hoops to prove that that was the 
cause.
    And I would look forward and I do look forward to working 
with you on fine tuning, and with Members of the Committee and 
the Subcommittee on fine tuning that legislation.
    But they are finding, as I was told this morning, that the 
Guardsmen that they are working with are reluctant to talk to 
the brass. They are reluctant to talk to officers. They will 
talk to other soldiers. They will talk to counselors. You know, 
the families will first open up to a counselor. But once they 
do open up, I would like it to be, if the diagnosis is there, 
the treatment should be automatic and as quick as possible.
    The second thing that was mentioned by a couple people, I 
think, was the CARES process and whether there is any 
adjustment that needs to be made there.
    And particularly in my district, we have Castle Point and 
Montrose VA hospitals, a CBOC in Middletown, New York, in 
Orange County.
    But Montrose is a big and beautiful site on the east bank 
of the Hudson River which is being looked at right now for 
highest and best use conversion which I think should mean 
highest and best use for veterans.
    And what I am concerned about is that in the name of a 
short-term revenue hit that some of this or some or all of the 
site may be converted to condos, marinas, retail space for 
profit and for private developers.
    And we have severe need for transitional housing for 
homeless veterans, for independent living, assisted living, and 
nursing care for our more elderly veterans and for 
rehabilitation housing where vets can live with their families 
while they are being rehabilitated from injuries as they are in 
Silver Spring at the Homefront Village that some of us visited 
last year.
    So with all those things, with all those needs and the 
veterans returning from Iraq and Afghanistan, I think it might 
be premature to close or knock down empty buildings at the 
Montrose facility.
    And in the course of inviting you to the Hudson Valley and 
to West Point again, your alma mater, I would ask you to visit 
Montrose with me and have a look at that.
    And I look forward to working with you very much. Thank 
you.
    The Chairman. Mr. Walz?
    Mr. Walz. Thank you, Mr. Chairman and Ranking Member.
    And thank you, Mr. Secretary. It is a real honor to be here 
with you. And, of course, having served at a time when you were 
serving, also to serve under you was a great honor.
    And I would like to especially thank your wife who--as you 
all know, no warrior deploys alone or takes a mission alone--so 
your wife is giving up those well-deserved retirement years 
that you worked so hard for in this Nation. So to step back, 
thank her for all of us. It is a just service to the Nation 
again.
    It is a great scene that I have here in seeing you. Sitting 
behind you are the men and women who literally represent 
millions of our veterans. They are the voice for those 
veterans. And I know you already know many of them on a first 
name basis. They are here every day. They are speaking and they 
have been doing it for decades. And they are your strongest 
supporters sitting behind you. They are the strongest 
supporters of the VA.
    And because of that, they will also be your toughest 
critics. They are there to make sure that that organization 
succeeds. They are there to make sure that you have the tools 
to make it succeed for veterans and they will point out 
shortcomings. And I think it is a very healthy dynamic. I see 
them as what makes the VA work and they are the people who can 
help you greatly.
    A couple things you said, General, make----
    Secretary Shinseki. Sort of----
    Mr. Walz. Please, go ahead.
    Secretary Shinseki. Sort of like leading soldiers, same 
dynamic.
    Mr. Walz. Absolutely. Well, to see you leading from the 
front is a real pleasure. And later on when I invite you to 
Minnesota, being the Sergeant Major and inviting a General, you 
must come in the winter coming from Hawaii. Ms. Herseth Sandlin 
is much kinder than I am.
    I heard some great things here my colleagues are hitting 
on. So I am very proud of this. I think one of the greatest 
honors of my life is to serve on this Committee and know the 
work that we are doing.
    And this is a Committee that at times we may differ on the 
means. We never differ on the end of care for our veterans. And 
it is a very, again, healthy dynamic. These are great leaders 
up here and I am proud to be here and proud that you are going 
to lead the organization.
    A couple things you said that I think are getting exactly 
at the heart of what we can do as systemic things that we can 
fix, whether it is claims backlogs or how our veterans are 
cared for, are cultural.
    And I think you have already started to hit on that and it 
is the issue of seamless transition. Everyone here and everyone 
out there is so sick of hearing about this for decades, but the 
reason they keep bringing it up is that group out there 
understands this is the key.
    And I applaud Ranking Member Buyer. His work on the dental 
issue is exactly right. In the long run, not only will we care 
for our veterans better, we will save money in my belief as the 
way that the Ranking Member is talking about it and our 
readiness will be increased.
    I know that my biggest fear every time we went to a 
mobilization station was I lost my soldiers on dental issues. 
And we need to have that readiness up, plus the care they get. 
So I think that is a huge issue you are getting in on the 
seamless transition.
    And talking about the single medical record, and we heard 
Dr. Roe talked about it, I represent the city of Rochester and 
the Mayo Clinic. And they, too, will echo your assessment that 
VistA is one of the best things out there.
    We know there are differences in the needs of some of these 
records and being down range. And some of my colleagues when we 
went to Afghanistan and Iraq with the specific purpose of 
watching how this worked, we have got a system now that makes a 
physician down range have three computers and seven databases 
open to assess things for a soldier that is wounded.
    We can do better than that and we can centralize that and 
get it moving through, but what it does in my opinion--the DoD 
does a very good job of what they are tasked for and their job 
is to fight wars and protect this Nation. And the VA does a 
very good job of what they do, which is to care for our 
veterans. The problem lies in when we have that handoff, that 
transition.
    So I think the goal--and you meeting with Secretary Gates, 
who is a great advocate of this and a great leader and we're 
very proud to have him there--is to try and make sure, because 
I think the systemic problem with the claims backlog is not 
getting these people in, is not getting them transferred over, 
and then we see, as I said, the DoD hands off most of these 
veterans at a point where things like diabetes have not shown 
up yet and some of these problems.
    If we can get them early, if we can treat them, we are 
going to do what is right by the veteran, save money, and, as 
one of my colleagues said, keep faith with the next generation.
    So I would like to hear just your feelings, and I have 
heard you say it, I heard you say it in your confirmation, this 
idea of seamless transition, and how do we finally crack that, 
those silos that are set up between DoD and VA.
    Secretary Shinseki. Just very quickly, one of the other 
things that I broached with Secretary Gates besides our 
agreeing to chair the process to keep the initiatives going, a 
single medical electronic record, but also mandatory enrollment 
in the VA, not left to out-processing whims, mandatory 
enrollment in the VA and have that as a requirement.
    That alone will force the two institutions to begin to move 
together on what records need to be handed off at that point. 
And there is no excuse for not having that handoff, but it will 
force us to do other things to achieve mandatory enrollment in 
VA.
    Even for those who may not have a disability claim at that 
point, 10 years down the road, who knows? Twenty years down the 
road, we do not want to be doing what we are doing now which is 
chasing details and records that are, you know, hidden away 
some place. We will have that handoff. It will be controlled 
and there will be an opportunity even years later to make 
adjudications based on complete records.
    Mr. Walz. Well, I cannot say enough how much that pleases 
me and I think there are probably a lot in the back of the room 
that are nodding also, that this is one that we have been 
trying to get at.
    And, again, congratulations to you and to our veterans. To 
have your leadership there is very comforting.
    I yield back.
    The Chairman. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. Mr. Secretary, welcome and good seeing you 
once again.
    I sat on the Armed Services Committee for a while. I have 
been in this Committee now, for about 11 years. And one of our 
frustrations has been trying to create that seamless 
transition. I think Secretary Peake was a tremendous Secretary 
also, though he did not participate long enough there to make a 
difference.
    But we really need to see and I would ask you to come forth 
and let us know if there are areas that we need to work in 
terms of additional legislation that allows you the flexibility 
to do those things that need to occur and/or where there are 
resources that are needed.
    I know one of the areas was in terms of the new technology 
and some of us felt frustrated when we compromise all those 
names of those veterans with that information, and their 
identity could be stolen, where we really needed maybe an 
external task force.
    I would hope that you are open to those ideas and see what 
you can make happen from a bureaucracy that has a lot of good 
people working in it, but it also has some driftwood that 
should not be there and they need to open up to some of that.
    I also just want to follow-up on the veterans 
organizations. I would hope that you really look at how we can 
utilize them.
    You just mentioned a beautiful comment about making it 
mandatory for everybody to be part of the VA. The beauty of it 
is to go back to those Vietnam veterans and all the others, and 
the veterans organizations are the ideal ones that can help 
with that outreach.
    I am a social worker by profession. I had served in the 
Texas House and other political subdivisions. And when I came 
up here I was astonished on the amount of casework that we do 
for the VA. And if I talk to any of these Members of Congress, 
a great load of their casework as Members of Congress is 
veterans.
    So we are doing a lot of the casework that the VA ought to 
be doing. There is a real need to look at a case management 
system that allows an opportunity to help those veterans fill 
out those forms that we have to do because it is so burdensome 
and so bureaucratic.
    I was listening to your comments on the backlog. I am 
pleased on that.
    I also want to stress rural America. I represent San 
Antonio to El Paso, 650 miles, 700 miles to the border. And I 
also want to welcome you to come over. We have some beautiful 
facilities out there and beautiful services, but we have some 
huge gaps.
    In El Paso, we have an opportunity to work with the 
Department of Defense there, a facility, as well as the VA. And 
we have some real problems that need to be worked out. We have 
facilities that need a great deal of construction work to bring 
them up to par. And so we are looking forward to working with 
you in dealing with these issues.
    I wanted to stress and see what you might be able to do 
with those veterans from the previous eras, not only the 
veterans that are coming back home now, with reference to 
suicide rates. The high suicide rates are not acceptable. We 
need to see what we can do in that area and the area of mental 
health. And our veterans organizations can also play a role 
there.
    I know that there are other programs in terms of job 
training for our veterans and other things that could be 
important that we could also be playing a role in. So as we 
move forward, I look forward to working with you on these 
issues.
    I have been in this Committee 11 years and it has been 
frustrating, but I feel really optimistic in the last few years 
with the resources that we have put there. I know that it is 
going to be tough getting the bureaucracy to move, but I think 
the majority of us on both sides are willing to see what we can 
do.
    I am referring to previous secretaries, Democrats and 
Republicans, that we have had difficulty with because in 11 
years, I have served also under other Democrats. And the key is 
we are all in this together and one of our responsibilities is 
to make sure we service our veterans and do whatever we can do 
to make that happen.
    So I wanted to personally thank you. And if you can just 
make any comments as it deals with the rural services. I know 
we did some legislation for some pilot programs in that area 
for other facilities because in spite of the fact that I 
represent those areas, I have no facilities in my area. The VA 
facility is in somebody else's district, both in El Paso and in 
San Antonio, though they service my area, and I have 700 miles 
with not a single clinic or anything.
    And so I wanted to get your feedback on what might be some 
of the plans.
    Secretary Shinseki. Well, sir, having driven I-20 several 
times from Dallas to El Paso, I know the terrain you describe.
    I will tell you that I grew up in Vietnam and in many ways, 
I am now watching all of our efforts to understand PTSD, TBI, 
substance abuse amongst veterans. And I have a better 
appreciation for what we put my comrades through when we came 
back and none of these programs were available. In fact, these 
were not terms that were in vogue then. And we still do not 
understand enough in this area. We are still learning.
    One of the things we have started doing at VA is we screen 
all Iraq and Afghanistan veterans who register with us and we 
have been doing this since April of 2007. And just through a 
four-question screen that asks them if they were ever 
associated with an event like an IED event or similar, we have 
screened about 235,000 veterans. Forty-three thousand of them 
who are being tracked as potential TBI cases met our 
requirements, hit our radar screen for follow-up.
    And out of those numbers, about 12,500 have been confirmed 
as mild TBI. We have been able to rule out 10,000 of those 
veterans with about another 5,000 still left to be evaluated. 
So we are learning here and making this effort to screen as 
many Iraq and Afghanistan veterans as we can.
    We are doing similar things with PTSD and I would say that 
the numbers I am given, that in 1999, we were providing 
disability payments to about 120,000 veterans in the category 
of PTSD. Today, as of September, this past September, that 
number of veterans is up to 340,000. So we are making the 
effort here to identify PTSD patients as well.
    We know if we identify it, we have a good chance of 
treating it and precluding some downstream problems for these 
veterans.
    Regarding suicide, we are part of a national hotline since 
July of 2007 which we are collaborating with the U.S. 
Department of Health and Human Services (HHS) on. We got 67,000 
calls in 2008 and already this year, this fiscal year, we are 
up to about 25,000 suicide calls on this hotline. Some of them 
involving active-duty personnel as well, not just veterans.
    I think the key factor here is, I am told, that in over 
1,700 cases, we intervened and prevented an act of suicide in 
2008. Already this year, over 700 interventions where we have 
been able to marshal forces with local authorities, find the 
individual who has called in, and intervene.
    So we are doing more, not enough. We are learning as we go. 
I assure you that my recollection of what my friends went 
through as a result of Vietnam, I will keep.
    Mr. Rodriguez. Mr. Secretary, thank you very much. And I 
know we have high expectations for you short of walking on 
water. We are going to be there with you also because your 
success is our veterans' success also. So we will be there 
right with you.
    Thank you.
    The Chairman. Thank you, Mr. Rodriguez.
    Mr. Secretary, if I could just follow-up on your previous 
statement on the examinations or the assessments. I think when 
you meet with Secretary Gates you might mention this--there has 
to be a mandatory evaluation for both TBI and PTSD.
    Right now, it may be a self-reported questionnaire, as you 
referred to. Everybody knows if they want to go home, they do 
not answer certain questions positively. There is a whole 
dynamic, you know, against both--there is a dynamic of denial, 
both self-denial and in the military. And I do not mean just by 
a clerk coming in with a questionnaire. I mean, medical 
personnel giving an evaluation before they leave the service. 
As you know, you can order that to happen and right now it is 
not happening. You pointed to the statistics, and I think the 
statistics are even higher. A lot of the screening when these 
young men and women come into the VA is done by self-reported 
questionnaires. We have to move away from that. The numbers are 
too high. The denial is too great and the problems are 
overwhelming us in the civilian world.
    The statistics of your comrades from Vietnam show that more 
veterans have died from suicide than in the original war. That 
was over 58,000. That means we have not done this right. You 
point to some things that are moving in the right direction, 
but I think we have a long way to go.
    The statistics just boggle your mind because these are our 
children and we cannot let it happen. And we are looking to you 
to move that in the right direction.
    Secretary Shinseki. Mr. Chairman, the numbers I gave you 
was just to demonstrate that we have not missed the importance 
of this area. We do not have the solutions. We are learning as 
we go.
    One of the things we have done at the VA is we have taken 
mental health from being in a separate part of the complex and 
moved it into the primary care area to reduce the stigma of 
someone having to go to that part of the hospital. So we have 
integrated mental health with primary care. We have also 
trained primary care medical personnel on what to look for. And 
it is through this process that we are beginning to get some 
response. It is not enough. More to be done.
    The Chairman. When you start traveling around the Nation as 
I have done as Chairman of this Committee, in every community 
of this Nation, people want to help. They want to help the 
young men and women, the older veterans.
    Too often, the Department of Veterans Affairs appears as a 
bureaucracy that says, ``no, we do not need your help.'' The 
resources are in our Nation and we have to tap them in a new 
way and reach out.
    Everybody wants to help. In a democracy in a war, people 
understand that it is part of everybody's struggle, not just 
the few who volunteer. We need to tap into those resources. And 
I look forward to working with you to make sure that occurs.
    Mrs. Halvorson, we look forward to your participation on 
our Committee and you have the floor.
    Mrs. Halvorson. Thank you, Mr. Chairman.
    And thank you so much, Mr. Secretary, for being here.
    Before I get into the question I have, I want to follow-up 
with what the Chairman has just said. Unfortunately, last 
August, my husband and I spent a lot of time at Walter Reed 
last year because our son was injured in Afghanistan. He is a 
Special Forces Captain. And I can attest to exactly that.
    People came in every day asking him questions. And the 
first few days, I do not think he was capable of answering any 
of these questions, on top of the fact that these are strong, 
tough guys who do not want to admit that there is anything 
wrong with them, and especially with him. He is a Captain, 
Green Beret, Special Forces, working very hard.
    And they came in every day, got great help. However, every 
time they came in to ask him if he knew what he was saying, he 
was fine and he did not have any problems. And I think maybe we 
need to follow-up and do something with that.
    However, one of my major concerns and having spent so much 
time last August at Walter Reed myself, not only in my district 
but at Walter Reed, the concern was a lot about the women 
coming home. And I am sure you are aware that women coming 
home, veterans will double, more than double in the next 5 
years. And I think that culturally as well as historically will 
present problems for the VA or not necessarily problems, but 
challenges.
    And do you think that maybe you could help us identify or 
what challenges do you see going forward with whether it is 
health related, cultural related, how we are going to be 
dealing with the women veterans that will be entering our 
system?
    Secretary Shinseki. Thanks for the service of your son.
    Mrs. Halvorson. Thank you.
    Secretary Shinseki. Just on this issue of women veterans, 
we anticipate that by 2020, 15 percent of our veterans will be 
women. And having come through the experience of women joining 
the ranks of the Army in large numbers very quickly, we played 
catch-up there and we are probably in the VA also playing a 
little catch-up here from what was primarily a male population.
    But the timing is right for us to put in place the kinds of 
things that will anticipate a 15 percent population. At every 
one of our 153 hospitals, there is a women's program 
coordinator. There is a women's advisory group that works with 
me on being able to anticipate what other initiatives we should 
be pursuing and now is a good time to take this on.
    So I look forward to doing that. As I say, we are aware of 
this change in trends. We are playing catch-up, but we will----
    Mrs. Halvorson. Great. I look forward to working with you 
on that and anything else I can help with. And as everybody 
else, I look forward to you coming to Illinois to be with us.
    Secretary Shinseki. Okay. Thank you.
    The Chairman. Mr. Secretary, I want to give you the benefit 
of some experience here with the information you sometimes get. 
You have talked about being out in the frontlines and let me 
just give you an example of what I mean.
    You mentioned there is a coordinator for women's health. 
There is also a suicide coordinator and there are some other 
coordinators. You ought to find out when you get to a hospital 
who that is and what are they doing. That is, it may be 
somebody who is doing it as only a small percentage of their 
job.
    I do not have to tell you that with a big bureaucracy you 
have to be careful. I have seen these statistics over time. 
Everybody has a coordinator but when you go into the hospital, 
there is a clerk who is collecting statistics. That is their 
coordination. They are not acting as health coordinators, or 
bringing all the resources together to make sure they are 
tapping all their resources.
    I am sure the same thing is true in women's health. We get 
this kind of information a lot and when you go back to see what 
it means, it is not as good as it sounds.
    Just a fair warning as you try to develop this information.
    Secretary Shinseki. I have not been on the terrain yet, but 
I will be.
    The Chairman. I am sure you had information that there are 
153 coordinators. Well, I just bet that is not the reality.
    Mr. Perriello, thank you for serving on our Committee and 
we look forward to your participation.
    Mr. Perriello. Thank you, Mr. Chairman, and thank you, 
Ranking Member, for allowing me to be part of this Committee.
    And thank you to you, Mr. Secretary, for your service to 
this country in the past and in the present. This is a 
tremendous moment for us as a country. It is a gut check moment 
not only on the battlefield but on the economic frontlines back 
home.
    I want to just ask you about a couple of quick things 
related to my district and I think more broadly in the country.
    I represent an area, central and southern Virginia, one 
where I think you spent a little bit of time. And I would love 
for you to come back. I am closer than a lot of these other 
districts, just a few hours away. So I hope you will be able to 
join us.
    When the Commonwealth of Virginia did a report on access to 
veterans' facilities, southern Virginia was the furthest behind 
in terms of access. And I think that is true in a lot of our 
rural communities. So I want to make sure that as we think 
about access for our veterans that our rural areas are not left 
out.
    Second, I think it continues to be a great blight on this 
Nation that 25 percent of those who are homeless in this 
country are veterans, and what strategies you think we need to 
be employing to address that issue.
    And then, finally, is, of course, the issue of the economy. 
We are losing 16,500 jobs every day in this country. Several of 
the towns in my district have now topped 15 percent 
unemployment. This is something that reaches well beyond the 
issues of veterans in general, but obviously economic 
opportunities and finding economic opportunities for our 
veterans that is so crucial becomes all the more difficult in a 
job environment where we are doing everything we can just to 
cling to the jobs that we have.
    Among the veterans that I meet with often in my new 
district, the two things that come up most often are access to 
health and access to jobs.
    What are strategies that we can pursue in these very 
difficult economic times to make sure veterans are coming back, 
and I do see a dangerous trend given the uptick in PTSD, 
particularly from those returning from Iraq and Afghanistan, 
that some employers who in the past have taken great pride in 
trying to hire veterans, I sense a skepticism there, and what 
can we do to make sure that we are addressing economic 
opportunities for our returning men and women in uniform?
    Secretary Shinseki. Well, Congressman, I do not have good 
answers for you today, but I would tell you that these are 
areas that I intend to spend time in.
    Besides visiting Secretary of Defense Gates, I intend to go 
and pay my calls at the U.S. Departments of Labor, Education, 
Housing and Urban Development, and the Small Business 
Administration because I think in many ways, our veteran 
population is a microcosm of what is going on in the country. 
And if we can harness their talent and their capabilities and 
partner with them, we may come up with solutions that may be 
models for others.
    But I do intend to pursue these areas, jobs, HHS, both 
linking our primary care, health care initiatives, but also in 
things of mental health, substance abuse amongst veterans, and 
then education for those who wish to pursue education, and then 
small business opportunities
    So there is going to be a series of meetings here and I 
hope to be educated in that and hope to be able to work with my 
counterparts in addressing some of these issues.
    Mr. Perriello. Thank you. We have a lot of confidence and 
look forward to working together to tackle those problems.
    The Chairman. Thank you.
    Mr. Buyer.
    Mr. Buyer. Thank you very much.
    General, I am hopeful that the two of us can meet next 
week, and go into some greater issues with greater details.
    Let me just touch on several issues that have been brought 
up here by other Members and try to fill in some blanks.
    As you make your tour of other departments, I invite you to 
also place on your list the Department of the Interior. Now, 
the reason I ask you to do this is that we have the National 
Shrine Program with regard to the VA. So this is one of these 
moments where we can take a step back and say--you can tell a 
lot about an individual or a country by whom is honored and 
whom they associate with.
    And most of the discussion today has really covered on the 
health care aspects and disability and other things, but there 
are two areas that have not been discussed. One deals with our 
cemeteries and our cemeteries' administration. And, 
unfortunately, we kind of have three standards with regard to 
our National cemeteries.
    We have that of the Battle Monuments Commission and you 
have toured these facilities, I am quite certain, as you go 
abroad. And so you can see the standard with which the Battle 
Monuments Commission take care for our fallen heroes. Then we 
have the VA national cemeteries and the National Shrine Program 
and the work, the good work that is done, but we want to 
increase that quality.
    And then you can go to the Department of the Interior to 
our National cemeteries. So of the 14 national cemeteries 
within the Department of the Interior, 12 of them are closed. 
Two of them are still operational. And when you go visit them, 
so go to Andersonville in Georgia, and you will walk around and 
it is quick to see that there are three different standards.
    I invite you to put your eyes on this one, and I will work 
with you and your new Under Secretary for Cemeteries on what we 
can do to bring the Department of the Interior and their 
standards up. To be very bold, they need to be brought up. And 
so I would invite you to have that conversation and that charge 
to your counterpart.
    The other comment would be in your opening statement, you 
recited the words that are on the front of the building which 
you occupy of Lincoln's second inaugural address, and that is 
referring to the widow. And I think it is time for us to 
modernize the Dependency and Indemnity Compensation (DIC).
    Now, when you look at the other systems that we have on how 
we care for someone that has been hurt in the line of work as a 
Federal civilian employee, they get treated better than the 
military widow. I think that is wrong. I believe that is wrong. 
And this is one where I want to engage with you.
    I do not know, because we have not had this personal sit-
down, what your desire is and what type of imprint you seek to 
make on our country and taking care of our veterans. But if you 
want to move boldly and you want to make that big imprint and 
to make a difference, you can do so by increasing the quality 
and standards.
    So not only with regard to our national Shrine Program and 
making sure that these other national cemeteries are brought 
up, we can make sure that our widows, in fact, are taken care 
of and increase their DIC baseline to reflect how other widows 
within other Federal systems are done. I think that is a very 
important thing. So it is about quality and it is about how we 
take care of people.
    The other point I want to make with regard to 
clarification, so I can be very specific, when the Sergeant 
Major brought up the comments with regard to dental and the 
National Guard issue, it is sensitive to a few of us, sensitive 
because it took 3 years to get this to happen within the Army 
and it should not have taken that long. You know what it is 
like to move systems. It should not take long, but it does. And 
we tried to get his brigade taken care of and some funny 
business took place with regard to how that study was 
conducted.
    But I do want to extend some compliments. I want to extend 
some compliments to the former Vice of the Army, General Cody. 
You know him well. He is a no-nonsense person and that is who 
really put his eyes on it and began to move it forward.
    There is another lady by the name of Brigadier General 
Rhonda Cornam who is very, very sharp and also a no-nonsense 
doctor. And there is another gentleman, Colonel Steven 
Eikenburg, Six Sigma kind of guy within the Dental Corps, very, 
very sharp. And the other is the DENCOM Commander, Ted Wong. So 
they actually made all this happen.
    The other point I would like to make with regard to the--if 
I may, Mr. Chairman.
    The Chairman. Please.
    Mr. Buyer. With regard to the stimulus package itself, now, 
what specific veteran provisions and associated funding levels 
does the Administration support within the stimulus package 
that is going through Congress.
    So here we gave you a number. We have no idea what you 
intend to do with that number and whether you anticipate in 
this negotiation whether that will change, increase, decrease. 
I will leave that open to you.
    Secretary Shinseki. I am not sure that I have a number 
here. I just know that if we are going to maintain the momentum 
that the Congress provided to the VA in the last couple of 
years that the higher of the two marks obviously would be of 
interest. But I understand that there is a process here and I 
will await the outcomes of that process.
    Mr. Buyer. The last point I would like to make, and maybe 
you could do this when we get together, you could provide me 
updates. The Chairman and I have worked hand in hand to 
increase the revenue enhancement process. And this whole 
concern with regard to the 8s, the Category 8s has been, has 
the system been prepared to receive.
    It is a capacity issue and that is what you are going to 
find when you get into this. And I was pleased that the 
Disabled American Veterans and Veterans of Foreign Wars have 
also now publicly raised capacity issues because they are 
absolutely right.
    And one of the pieces of this is revenue cycle management 
and that is the CPAC and the build-out of these CPACs to make 
this happen.
    Have you received your brief with regard to the CPAC and 
the build-out yet?
    Secretary Shinseki. Probably not to the quality of the 
detail you are referring to, but I do know that we have a 
third-party collections process and we are doing better at it.
    Mr. Buyer. If you could have somebody give you a brief 
before we get a chance to meet next week, that would be really 
very productive.
    With that, I yield back. Thank you.
    Secretary Shinseki. I will do that.
    The Chairman. Thank you, Mr. Buyer.
    Thank you, Mr. Secretary, for joining with us today.
    I just cannot avoid following up on your last comment about 
third-party collections. I hope you will work with us because 
many of us have years and years and years of experience here. 
We do not have a real third-party process that meets its 
potential. They say they do, but every year they claim we have 
not collected a billion or two that they should have.
    In fact, and both Mr. Buyer and I have been acquainted with 
this, there are systems that are available to you at the VA 
that do not cost you anything and will double or triple or 
quadruple your third-party collections because they tell you 
exactly what kind of coverage a person coming into your care 
will have. I hope I have summarized that correctly.
    So, the information is that you have a system but it is not 
anywhere near meeting the potential that it could.
    Mr. Buyer. Will the gentleman yield?
    Your comments to us was in your opening statement you 
wanted to leverage best practices. That is what this CPAC 
build-out is doing with Stockamp. And there are some other 
systems to be able to do that as you build out that envelope 
and that is what the Chairman is referring to.
    The Chairman. Let me just say a couple comments in 
conclusion and give you a chance for any last statement you 
might want to make, Mr. Secretary.
    You are the Secretary of the Department of Veterans Affairs 
and we have thrown at you a lot of information. You can focus 
on that until the end of your term and not make it perfect.
    But even with all that your job involves, you are going to 
be sitting in cabinet meetings, and there will be other issues 
that come up. We have a chance, I think, as a VA system to 
contribute to other areas that are coming up and you cannot get 
pigeonholed.
    I will just give you a couple of examples that came up 
today. I think Mr. Michaud mentioned if somebody becomes 
unemployed and they lose their health coverage and they are a 
veteran and their eligibility is based on a previous year's 
income, we could help there, right? If someone becomes 
unemployed, I think you should offer this information to the 
President and find a solution cover them.
    In addition, although it did not get the same publicity, we 
did a GI Bill for the 21st Century and the educational benefits 
are incredible. I know you are focused on making sure these 
benefits will be available on August 1st.
    We have a piece of the GI Bill that did not get the same 
attention, but has great relevance for today. We have to 
publicize it more. A big part of the first GI Bill 1944 was the 
Housing Loan Program. I know many of us are here because of 
that.
    When my dad came back from World War II he was able, with 
very little money, to buy us a house for the first time in our 
family's history. We became part of the middle class as did 
eight million other veterans' families.
    We changed that program very fundamentally because it was 
not relevant to the existing markets. We raised the level of 
the loan for the purchase of a house. More importantly, we got 
rid of the limits on refinancing and lowered those fees.
    We made the VA relevant to this crisis and a lot of people 
do not know about it. I think you and the President ought to 
publicize that a bit more because with all the subprime 
mortgages, the VA became irrelevant to veterans. Now, it is 
relevant again and we have to show that. You have a perfect 
opportunity to show that your Department can aid people who are 
in trouble. I think they just do not know it.
    In addition, when the Secretary of Labor designee, Ms. 
Solis, joins the cabinet, the first thing she said to me when I 
congratulated her on her nomination was we have to do something 
with veterans and their jobs. She understands that we have been 
working together for a decade on it.
    I hope you will make sure that Ms. Solis or I hope 
Secretary Solis and you will work on our ability to open up 
jobs for veterans.
    I want to make one more comment, but I think Mr. Buyer had 
something. Oh, I am sorry, did you just come back?
    Mr. Buchanan. Yes.
    The Chairman. Mr. Buchanan, you may take a few minutes if 
you would like. No? Okay. Thank you, sir.
    Mr. Secretary, you have a great opportunity here and I know 
you are up to the task. We have, as you know, more than a 
quarter million people working in the VA. Most of them are 
dedicated and they went to work for the VA because they wanted 
to help veterans.
    But as you know, in a big bureaucracy, sometimes your 
bureaucratic dynamic takes over and people forget their mission 
or, as in the case of the VA, we gave them less and less over a 
period of time and asked them to do more and more and morale 
suffers. The bureaucratic dynamic takes over. Someone is going 
to get promoted because they saved money.
    Then they are reluctant to recommend, for example, that the 
fee basis, that is to get care in one's own community, is 
denied because it is the bureaucratic dynamic, not the welfare 
of the veteran that is paramount.
    You have heard the horror stories that occur, whether in 
the claims process that may take years and years and years or 
the kid that shows up at a hospital and says I am thinking of 
killing myself and some intake person says come back in 5 weeks 
when we have time for you. And they go home and kill 
themselves.
    We have heard about the shredding of documents, because 
there was a quota imposed and they felt they had to meet it, so 
they short-circuit the whole system. The statistics on suicide 
were not met in a very open way. As I said earlier, community 
participation is closed out.
    This is what, I think, is a paramount job. You can hire the 
people to manage most of it, but the morale of the 280,000 or 
so of your employees, and the morale of veterans, many who 
think VA means ``veterans' adversary'' rather than ``veterans' 
advocate,'' and have had too many problems with the 
bureaucracy, is essential.
    The visible presence that you have talked about in every 
arena, which I have seen you in is absolutely necessary at this 
time. They need to see you. They need to see your passion. They 
need to see you are ``hands on'' because a lot of confidence 
has been lost and I think we have to rebuild that.
    You have a reputation of doing that. You have a reputation 
of honesty and integrity and talking truth to power. You have a 
reputation, as I said earlier, of being the soldier's soldier. 
So now you are the veteran's veteran. We have absolute 
confidence that you are going to be able to do this. But it is 
a culture that has to be changed and I think you have 
recognized it already with your statement.
    Everybody here is looking forward to working with you. It 
is absolutely true on both sides of the aisle. Whatever term 
people are in, it is true. We are excited that you are there. 
We are excited that we are going to look to a transformation 
and we will be there. We need you to be honest with us.
    Nobody ever asks us for resources sitting in that chair 
because you have to go by the President's budget. But we need 
to know what is going on so we can help you--that is what we 
want to do. We have an oversight function which we will 
exercise, but we have a supportive function to make sure that 
you have the resources.
    Thank you for spending the morning with us. You get the 
last word for as detailed or as general as you want to be. 
Again, thank you so much for being here.
    Secretary Shinseki. Just very quickly, thank you again, Mr. 
Chairman, Ranking Member, and the other Members of the 
Committee. I appreciate this opportunity.
    And I do not think you will ever hear anyone sitting here 
saying he enjoyed it, but I enjoyed being here this morning, 
getting to hear your issues and understanding a little bit more 
than the orientation briefs I have taken, what are the 
requirements that I have and what I need to do to begin to turn 
things in the direction that all of us would be positive about.
    I will make you two promises. I will be a forceful advocate 
for veterans. That is why I decided to accept this position. 
And I will be forthright and direct with you on what it takes 
to keep them at the focal point of our activities. And putting 
veterans first is, as I indicated in my opening statement, what 
we are all about. And I will give you those two assurances.
    And with that, Mr. Chairman, Ranking Member, and others, it 
has been an honor to be here. Thank you.
    The Chairman. Thank you. And that is all we need to hear. 
Thank you so much, sir.
    This hearing is adjourned.
    [Whereupon, at 11:51 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner,
             Chairman, Full Committee on Veterans' Affairs

    I would like to thank everyone for being here this morning. Today 
we will hear from the new Secretary of the Department of Veterans 
Affairs, General Eric K. Shinseki. Secretary Shinseki has an 
outstanding record of service and personal sacrifice to our Nation.
    He faithfully served with honor and dignity for 38 years in the 
United States Army in places like Vietnam, Bosnia, Afghanistan and 
Iraq, before retiring as the 34th Chief of Staff of the Army.
    He is a man of impeccable reputation who is often called a 
``soldier's soldier.'' Yet, he is also a man of great vision who is 
credited with conceiving today's Army long-term strategic plan and 
transforming the Army into a strategically deployable force.
    It is with all these credentials, that great reputation; and that 
forward looking vision, that I formally welcome the Secretary to the 
Department of Veterans Affairs.
    The VA, much like the Army, will require your visionary expertise 
as we navigate the issues that currently plague our entitlement 
programs and health care system.
    The Secretary and I recently met and had a lengthy conversation 
about the hard work and dedication that is necessary to keep the 
promises that have been made to all of our Nation's veterans.
    Although the 110th Congress focused on the issues affecting 
returning servicemembers, we must also live up to the promise to honor 
the service and sacrifice of our veterans from previous conflicts. We 
will keep our promise to our Nation's heroes of the past, present and 
future.
    We must remain committed to creating a 21st Century Department of 
Veterans Affairs that provides the care and benefits our Nation's 
veterans deserve, improves the quality of health care for veterans, 
rebuilds the VA's broken benefits system, and combats homelessness 
among veterans.
    Mr. Secretary, I am certain that I speak for all of the Members of 
this Committee that we look forward to working with you on the serious 
matters that confront our Nation's veterans.
    The role of this Committee is to conduct oversight of the VA to be 
sure that the best interest of our Nation's veterans is the number one 
priority. Caring for our veterans should not be a partisan issue--we 
must all work together to ensure the resources are available for the VA 
to carry out its mission.
    Mr. Secretary, so many veterans view the VA as "Veteran's 
Adversary." It is my hope that you will help create a Department of 
transparency and trust that will make all veterans view the VA as a 
"Veteran's Advocate."

                                 <F-dash>
   Prepared Statement of Hon. Steve Buyer, Ranking Republican Member,
                  Full Committee on Veterans' Affairs

    Thank you Mr. Chairman,
    Good morning. I'd like to welcome everyone to our first hearing of 
the 111th Congress.
    It is my pleasure to welcome the Honorable Eric K. Shinseki, 
Secretary of the Department of Veterans Affairs. Secretary Shinseki is 
a retired General in the United States Army, a twice-wounded combat 
veteran of Vietnam, and former Chief of Staff of the Army. I know from 
my tenure on the Armed Services Committee that Secretary Shinseki is a 
man of principle who adheres to Army Values, and I am encouraged that 
our perspectives are similarly aligned with regard to serving America's 
veterans.
    Mr. Secretary, when I read your written statement, I was pleased 
that the performance-goals you outlined resemble the enduring themes 
which I believe are essential as we navigate one of the most critical 
moments in the history of the Department. As you are aware, VA faces a 
number of critical challenges, many of which have confronted the 
Department for the past several years.
    Existing challenges, such as the disability claims backlog, will 
become even more imposing as thousands of combat veterans return from 
Iraq and Afghanistan, and further challenges will arise with the 
implementation of the new GI Bill. Clearly, significant difficulties 
lie ahead, but at the same time, meaningful steps have been taken over 
the past decade to help improve the timeliness and quality of care and 
services for our veterans.
    It will take time for these measures to take affect; for instance, 
the two thousand additional employees that VA hired in 2008 will 
require a considerable amount of training before they can make a 
positive impact on the claims backlog. Training for complex 
adjudication takes time.
    But the increased workforce along with technological improvements 
and other changes will hopefully begin turning the tide on the claims 
backlog. I want to emphasize my interest in seeing VA make better use 
of information technology to help eliminate the backlog problem.
    We must also make sure that servicemembers who leave the military 
are quickly and effectively provided with benefits and services to 
ensure that they experience a seamless transition to civilian life. 
This will require fundamental changes in the way VA and DoD compensate 
and assist veterans, and their survivors, for disabilities and deaths 
attributable to military service.
    It is urgent that Congress, the VA, and DoD work together in a 
decisive manner to implement such reform while the will to do so 
exists, otherwise we will merely be passing the targeted problems off 
to future generations. Successful reform would make great strides 
toward our mutually held goal of ensuring that veterans returning from 
military service are able to make a smooth and easy transition back to 
civilian life.
    Mr. Secretary, as you can see, you take office at a daunting time, 
and I again commend you for accepting this challenge, and I thank you 
for appearing here today.
    I look forward to your testimony.
    Thank you Mr. Chairman, I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Corrine Brown

    Thank you for calling this hearing today, Mr. Chairman. I 
appreciate you inviting the new Secretary of the Department of Veterans 
Affairs to this Committee.
    Mr. Secretary, thank you for coming here today. I was pleased with 
your testimony where you said that you ``have much yet to learn about 
Veterans Affairs.'' I am pleased you admit that you do not have all the 
answers and are willing too learn. This Committee does not have all the 
answers.
    You quoted President Lincoln in your testimony. I believe the words 
of the first President of the United States, George Washington, are 
also worth repeating at this time:
    ``The willingness with which our young people are likely to serve 
in any war, no matter how justified, shall be directly proportional as 
to how they perceive the veterans of earlier wars were treated and 
appreciated by their country.''
    I would like to be the first one to invite you to Florida. I was 
dismayed to learn that you have not been to Florida since basic 
training. I assure you that if you did not have a positive experience 
during basic training, Florida has gotten much better since the mid-
60's.
    Thank you for your decades of service defending the freedom of this 
Nation. Thank you for your commitment to the veterans who also served 
this Nation.
    I look forward to working with you. I know I speak for the 
Committee when I say that we want to be partners with you to help the 
veterans of this country.

                                 <F-dash>
              Prepared Statement of Hon. Harry E. Mitchell

    Thank you Mr. Chairman. I want to welcome Secretary Shinseki, and 
thank him for appearing before our Committee today. Mr. Secretary, 
given your long and dedicated service in the U.S. Army, I know that 
veterans will be well served by your leadership at the Department of 
Veterans Affairs.
    The Subcommittee on Oversight and Investigations, which I am 
honored to chair, has focused on a number of issues, including VA 
outreach, record-sharing with the Department of Defense, and 
implementation of effective information technology.
    At a time when less than 8 million of our Nation's 25 million 
veterans are enrolled at the VA, we have pressed the VA to do more to 
reach the remaining 17 million veterans. We asked the VA find ways to 
bring the VA to these veterans. The VA has since begun using modern 
media tools to do so, and I believe this was a great step in the right 
direction
    Turning to record sharing, the VA and the Department of Defense 
have been working on shared electronic medical record systems for at 
least 20 years, and much progress has been made in the last 2 years. A 
commitment from both Departments will be required to finish the job.
    Secretary Shinseki, I am pleased by your desire to create a 21st 
century VA, and I trust that your long military experience and 
exemplary record will enable you to join with Secretary Gates to make 
sure that both Departments know their bosses are watching and will 
accept nothing less than success.
    Finally, let me say that I believe when the VA and its dedicated 
workforce of public servants are doing their best, they can provide 
excellent health care and timely benefits for our Nation's veterans. 
However, VA needs strong leadership to solve significant management 
problems.
    The Department's financial and inventory management systems are 
completely inadequate and its outside auditor has found material 
control weaknesses for 3 years in a row. With enhanced information 
technology systems, VA's management will need to implement a high 
standard of achievement and help employees to reach it.
    Beyond these three issues, there are many challenges that face us, 
including implementing a new GI Bill and sorting through a mile of 
disability claims. We all have our work cut out for us. But, Mr. 
Chairman, with your leadership, and with the leadership of Secretary 
Shinseki at the VA, I believe we can make great progress.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Cliff Stearns

    Thank you, Mr. Chairman.
    It is a pleasure to be here today as we gather together to hear 
from our new Secretary of the VA, General Shinseki, about his vision 
for transforming the VA into a 21st Century organization. I look 
forward to hearing his testimony this morning and to supporting him in 
his capacity as VA Secretary. It is a difficult job, but the General is 
certainly well qualified, and I know our Nation's veterans are looking 
forward to seeing some key changes and improvements to the VA system 
that they so heavily rely on.
    This morning I would like to briefly touch on a few issues which 
stand out to me as priorities--these are obstacles the VA must overcome 
in the next few years. First, the VA must deliver timely health care 
benefits to our veterans. We are facing some serious management 
challenges at the VA, particularly with health care delivery, benefits 
processing, and financial management, and new leadership is needed in 
these key areas.
    On that note, the VA does provide health care for over 5 million of 
our Nation's veterans and operates a network of 153 medical centers--
this is tremendous. And overall, the Veterans Health Administration 
(VHA) gets universally high marks for the quality of medical care it 
provides to our veterans. In fact, the VHA holds down costs-per-patient 
while providing quality care better than any other comparable public or 
private sector system and the VA deserves to be commended for this. 
However, the VHA is facing major financial challenges which are being 
compounded as thousands of new wounded warriors return from Iraq and 
Afghanistan, so I would certainly welcome the Secretary's comments on 
this matter.
    Additionally, I think we need to pay particular attention to the 
increasing number of our veterans returning from Iraq and Afghanistan 
who suffer from TBI and PTSD, and it is essential that we take all 
necessary steps to remove the stigma associated with these mental 
health issues so that our Nation's servicemen and women will feel 
comfortable reporting any behavioral or health issues they are 
experiencing. Our men and women need to know the VA is here for them 
and can provide timely, comprehensive help in a confidential manner.
    Furthermore, we must take great care to reintegrate our members of 
the National Guard and Reserves, who are returning from Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) missions, back 
into civilian life and to monitor any injuries they may have incurred 
in combat. It is particularly difficult for members of the Guard and 
Reserves to adjust back into the civilian life they were accustomed to 
prior to deployment, especially when they are coming back after being 
deployed three and four times. Unfortunately, we typically don't begin 
to see behavioral or health related issues surface until months after 
these soldiers are demobilized, so this is an issue that is deserving 
of our full attention.
    I would also like to speak briefly about the need for VA 
infrastructure modernization. The average age of a VA hospital is over 
55-years-old compared to 20-years-old in the private sector. I worked 
for years to get funding for new construction projects in my district 
which were desperately needed. During the summer of 2008 I was proud to 
take part in two groundbreaking ceremonies in my district--one for a 
new VA Bed Tower at the Malcom Randall VA hospital in Gainesville, FL, 
and one for a state-of-the-art Outpatient Clinic in the Villages, FL. 
But, truth be told, more hospitals and trauma research centers are 
needed in my home State of Florida which is home to Nation's second 
largest veteran population, and I know this need exists in other parts 
of the country, as well.
    Finally, as Deputy Ranking Member of this Committee, I am glad to 
lend my support to Ranking Member Buyer's ``Noble Warriors 
Initiative.'' I think it's important that this Committee have a focused 
legislative agenda, and one that addresses the needs of today's 
veterans. I know myself and my colleagues on this Committee also intend 
to introduce important, forward-thinking legislation for our veterans 
as well, but I think it's important that we craft legislation that is 
workable and fully respects the use of taxpayer dollars.
    Thus, Mr. Chairman, I look forward to a productive 2 years, to 
working in a bipartisan manner with my colleagues on this Committee, 
and to working with our new Secretary of the VA, General Shinseki, 
whose extensive list of accolades speaks to his high potential to 
transform the VA into a high functioning and extremely efficient 
organization that our veterans can trust and rely on every step of the 
way.

                                 <F-dash>
              Prepared Statement of Hon. Ciro D. Rodriguez

    Thank you for speaking to us today, Secretary. I particularly 
appreciate your view of veterans as clients and not just customers. 
Businesses tend to invest more in their relationships with clients than 
they do with customers. This is exactly what we need--a personal 
relationship between the VA and its clients--our veterans.
    I also appreciate your focus on people, results, and forward 
thinking, as well as measuring success by timeliness, quality, and 
consistency. It's good to note that quantity is nowhere in that 
measure. Though it is certainly important to decrease our backlog of 
claims--which is definitely something that needs to be addressed 
quickly and decisively--the number of claims processed is not an 
appropriate measure of success. The number of claims correctly and 
accurately processed is. We all know you're a man of action, so we look 
forward to your progress.
    That being said, I have three topics I'd like to hear your initial 
thoughts on:

    1.  What is your sense of the current benefits backlog?

    2.  What are your initial thoughts on addressing rural veterans' 
access to care and the status of implementing the pilot program passed 
by Congress late last year intended to allow highly rural vets to 
receive care outside a VA facility?

    3.  The VA Clinic at Fort Bliss' Beaumont medical Center is a great 
prototype for combined VA / Military medical program. With Fort Bliss 
building a new medical center, is the VA in any talks with DoD about 
taking over the current Beaumont Medical Center facility and expand 
VA's services in that area? Obviously this would be a great help to 
those veterans in the West Texas and Southern New Mexico area.

    Thank you. I look forward to a visit from you to Audie Murphy in 
San Antonio and the VA Clinic at the Beaumont Medical Center at Fort 
Bliss. I hope you will be able to visit very soon.

                                 <F-dash>
                 Prepared Statement of Hon. Jeff Miller

    Thank you, Mr. Chairman.
    Secretary Shinseki, I first want to congratulate you on your 
confirmation. As you and I have discussed, your reputation as a capable 
and effective leader has preceded you.
    You have taken on one of the biggest responsibilities in our 
Nation. With veterans from several generations under your care, you 
have not only the challenge of ensuring the delivery of the proper 
health care in the right locations, but also the challenge of ensuring 
the proper delivery of other benefits for veterans and their survivors. 
The VA is saddled with a longstanding reputation of a claims backlog 
that does not seem to greatly improve. While I do not think there is 
one single answer to address this issue, I hope that you will tackle 
this head-on, employing all the tools at your disposal.
    It is furthermore imperative that your department work with us here 
on Capitol Hill to address any and all issues as preemptively as 
possible, including proposals for addressing the claims backlog. We 
stand ready to help you with budgetary authorization, but the more 
forthcoming VA is about current and potential difficulties, the better 
we are able to do that.
    Equally important to benefits delivery is health care delivery. For 
one, I hope that VA takes further steps to recruit and retain health 
care professionals. Doctors, nurses, and therapists, just to name a 
few, are the backbone of this delivery. Our medical education system 
produces some of the best medical professionals in the world, and I 
would like to see more of them consider the VA as a fulfilling place to 
work, not only for their own experience but also for the experience of 
helping those who have preserved our Nation's freedom. The other side 
of health care delivery for VA is where the medical facilities are 
located. While a full-service VA Medical Center might not be practical 
in every town, I firmly believe there are still tremendous 
opportunities to bring a wide array of health care services to those 
that need it the most. I have recently seen the opening of two VA 
clinics in my district, both co-located with Department of Defense 
facilities. I still think there is room for even further improvement 
with a relatively small amount of construction that would provide full 
medical care not only for VA patients but also active duty servicemen 
and women. With over 105,000 veterans in my district alone, plus the 
active duty population, there is a pressing need for this expanded 
care, and I look forward to working with you on meeting this need.
    As I return to sit on the Subcommittee on Disability Assistance and 
Memorial Affairs for the 111th Congress, I also look forward to working 
with you on ensuring VA fulfills its obligations to veterans and their 
survivors throughout all of their lives, and their final resting place 
is incredibly important. Your oversight of our National cemeteries 
makes this a reality. I have been very pleased with the National 
Cemetery Administration's work with Barrancas National Cemetery in my 
district in the past, and know you will continue your efforts to keep 
it and all our National cemeteries a dignified final resting place.
    Mr. Secretary, I wish you the best as you take on the endeavor of 
directing the Department of Veterans Affairs. It is no small task, but 
this Committee stands ready to work with you. I look forward to your 
testimony today and seeing your progress in the future.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Joe Donnelly

    Mr. Chairman and fellow Members of the House Veterans' Affairs 
Committee:
    I am pleased and honored to have met the new Secretary of Veterans 
Affairs, General Eric Shinseki, and I believe President Obama has made 
an excellent decision with his selection of the general. Secretary 
Shinseki's record of service to this Nation is one of steadfast 
dedication and solid judgment, and I am confident he will bring his 
work ethic to the VA to ensure that our country's veterans are 
honorably and rightfully taken care of.
    Mr. Secretary, thank you for being here today and for taking time 
this morning to meet with me and my colleagues on the House Veterans' 
Affairs Committee. As you are aware, Mr. Secretary, VA care and 
services have improved over the past years but we all know much work 
remains to give our veterans the care they and the American people 
expect and deserve.
    There are several issues which must be considered top priorities; 
for example, reducing the backlog of hundreds of thousands of veterans 
who have been waiting months for their disability benefits and 
continuing to improve the diagnosis, treatment, and understanding of 
post-traumatic stress disorder and traumatic brain injuries.
    Mr. Secretary, another issue affecting my district and many others 
is access to specialty care. We need to assist those veterans who must 
spend hours driving to the nearest VA facility to receive specialty 
care because their local facilities are not equipped to help them. For 
example, St. Joseph County in my district has a population of more than 
a quarter million people, yet area veterans must too often drive more 
than 2 hours each way to get to the nearest VA hospital for specialty 
care, tests, or other care. While there is an excellent outpatient 
clinic in South Bend, it is unable to provide many needed services. I 
would encourage the VA to look at ways to help veterans in those 
communities who lack a nearby VA hospital and for whom a clinic isn't 
enough.
    Thank you for being here today, and I look forward to working with 
you in the future.

                                 <F-dash>
               Prepared Statement of Hon. Timothy J. Walz

    Thank you, Chairman Filner, Ranking Member Buyer, and Members of 
the Committee. I am very pleased to be here, and to be back on the 
House Veterans' Affairs Committee. We accomplished a great deal last 
Congress, thanks in no small part to the leadership of our Chairman, 
and there is much work that remains to be done. I am very pleased to be 
here with the new Secretary of the VA today, and I am honored, because 
he is a genuine American hero.
    We owe those who have served our country honorably in our military 
a profound debt, and that is what we are here for. I am confident that 
with a new Administration that has made its commitment to veterans 
clear not just in the campaign but with the outstanding nomination of 
not just a genuine American hero but also a proven leader in General 
Shinseki to be the head of the Department of Veterans Affairs, that we 
will make real progress on a number of fronts.
    I am also confident that we will continue to work in a spirit of 
bipartisan cooperation in this Committee which has been really 
impressive and gratifying and which ultimately is what our veterans 
deserve from us.
    I intend to be particularly focused this Congress on ensuring that 
our returning servicemen and women are guaranteed a seamless transition 
as they reintegrate back into civilian life. Such a seamless transition 
requires unprecedented cooperation between two huge organizations, the 
Department of Defense and the Department of Veterans Affairs, so it is 
a difficult challenge. We in Congress have a significant role to play, 
both in providing the executive branch with the tools it needs to make 
that seamless transition possible, and in providing oversight in order 
to guarantee that those tools are being used as effectively and as 
efficiently as possible. I was very pleased to see that General 
Shinseki, in his confirmation hearings, fully recognized the importance 
of seamless transition for our newest veterans, and I look forward to 
working with the new Administration on it.
    And I look forward to working with all of you.
    With that, I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Glenn C. Nye

    I want to take this opportunity first to thank you for meeting with 
me yesterday. With more than 105,000 veterans and the most military 
bases in any congressional district; I am duly committed to ensuring we 
care for our heroic service men and women during and after their 
service. I am confident that you will bring an energy to this position 
that has been lacking in the past.
    I have always been a strong supporter of the GI Bill, and am 
excited to be a part of implementing the new Post-9/11 GI Bill. Many of 
our veterans are unaware of the tremendous education benefits available 
to them under the new bill, and it would be a tragedy if they were not 
informed of them. Mr. Secretary, how will the VA ensure that all 
aspects of the new Post-9/11 GI Bill are not only implemented on time, 
but that the program's details are made available to all veterans?
    I lived in Iraq for most of 2007, and I recently returned from a 
bipartisan CODEL to Baghdad. While the violence in Iraq has subsided, 
the number of veterans will continue to climb. When active duty 
soldiers are discharged, the transition from a DoD based system to a VA 
based system can take months, and in some cases, years. Section 1618 of 
the FY 2008 National Defense Authorization Act required ``planning for 
the seamless transition of [members of the Armed Forces] from care 
through the Department of Defense to care through the Department of 
Veterans Affairs.'' In light of recent reports of increased suicide by 
members of the Armed Forces and the pervasive issue of traumatic brain 
injury, what steps are you taking to ensure a more seamless transition 
for our heroic men and women?
    As you know, more veterans who fought in Vietnam have committed 
suicide than were killed in action. This is an absolute tragedy. 
Recently, suicide rates among newly returned veterans from the wars in 
Iraq and Afghanistan have been the highest in recorded history. How can 
we better address mental health issues, and make certain our service 
men and women are receiving the care they deserve?
    In addition, I would like to invite you down to the Hampton Roads 
region of Virginia so you may witness firsthand how we are working 
together to better serve our veteran community. One example is Vets 
House, a nonprofit organization that provides housing, food, clothing 
and counseling services to homeless veterans. Vets House is an exciting 
project that has done great things for our local veterans and has 
helped facilitate their return to gainful and productive lives.
    Again, Mr. Secretary, I want to thank you for taking the time to 
speak before our Committee today. One of my main goals in Congress is 
to continually fight for the rights and benefits of the brave men and 
women who have served in our Armed Forces. The contributions they make 
to our lives cannot be overstated. I look forward to working with you 
to accomplish this shared goal. Thank you.

                                 <F-dash>
        Prepared Statement of Hon. Eric K. Shinseki, Secretary,
                  U.S. Department of Veterans Affairs

    Mr. Chairman and Distinguished Members of the Committee:
    Thank you for this invitation to discuss the state of the 
Department of Veterans Affairs. I am deeply honored that President 
Obama has entrusted me with this opportunity to serve our Veterans, and 
I look forward to working with you to ensure that they receive timely 
access to the highest quality of benefits and services which we can 
provide and which they earned through their sacrifice and service to 
our Nation.
    I would like to acknowledge the presence this morning of 
representatives from a number of our Veterans' Service Organizations. 
They are essential partners in assuring that we have all met our 
obligation to the men and women who have safeguarded our way of life. 
In doing so, the VSOs score our performance and theirs, as well, in how 
we meet our promises to care, in President Lincoln's words, for ``him 
who shall have borne the battle and for his widow, and his orphan . . 
.'' Their advice on how we might do things better will always be 
welcomed.
    I am fully committed to fulfilling President Obama's vision for 
transforming the Department of Veterans Affairs into a 21st Century 
organization. It is a mission that will require a comprehensive review 
of the fundamentals in every line of operation that we perform. It is a 
mission I look forward to undertaking. In the few days since my 
confirmation on January 20th, I've had the opportunity to meet with and 
speak to many of you individually. I appreciated hearing your concerns, 
gaining your insights and advice. What resounded in those discussions 
was your unwavering support of all our Veterans--and for the good 
people who come to work everyday in the Department of Veterans Affairs.
    We have over 280,000 employees working at 153 medical centers, 755 
outpatient clinics, 230 Vet Centers, 57 Regional Offices (ROs), in our 
128 National Cemeteries, and here at the Department's headquarters in 
Washington, D.C. They are an immediate and constant source of pride as 
they demonstrate their dedication to our mission, their devotion to our 
clients, and their willingness to continue to serve something larger 
than self. I intend to encourage teamwork, reward initiative, seek 
innovation, demand the highest levels of integrity, transparency, and 
performance in leading the Department through the fundamental and 
comprehensive change it must quickly undergo, if it is to be 
transformational. People induce change, not technology or processes, so 
transformation is ultimately a leadership issue. We have a capable and 
dedicated workforce, and I am prepared to help lead the Department 
through this.
    Leadership, innovation, and initiative--those qualities are 
important if we are going to change the culture of the Department. We 
do many things well now, but there are also other things we can and 
must do better. I have much yet to learn about Veterans Affairs, and 
there are good people helping me to quickly settle in. I do have some 
experience in leading large, proud, complex, and high-performing 
organizations through change. Not all experiences permit translation 
from one organization to another, but select principles often adapt 
meaningfully. Change is the most difficult task most organizations 
undertake, and yet change is imperative for all good organizations--if 
they are to remain relevant and responsive to those whom they serve. 
Our Veterans deserve and demand a Department of Veterans Affairs that 
remains relevant over time, that is responsive to their individual and 
changing needs, and that cares enough about them to undertake this 
challenging transformation. We care.
    We faced similar challenges about 10 years ago, as we began the 
transformation of the United States Army, a process that continues 
today. We found we could reframe the challenges we faced then into 
opportunities--opportunities for innovation and increased productivity. 
It is leadership's responsibility to define opportunity and quantify 
risk. Strong, positive leadership, dedication, and teamwork on the part 
of each key leader in the organization creates these opportunities--but 
it starts with me.
    Transforming the VA into a 21st Century organization requires three 
fundamental principles. We must be people-centric; we will be results-
driven; and, by necessity, we will be forward looking.
    Veterans are the centerpiece of our organization and of everything 
we do as we design, implement, and sustain programs that serve them. 
Through service in uniform, they have invested of themselves in the 
security, the safety and the well-being of our Nation. They are 
clients--not merely customers--whom we willingly serve in meeting 
obligations earned through their service and sacrifice. It is our 
mission to address their changing needs over time and across the full 
range of support that our government has committed to providing them. 
This, we will accomplish.
    Equally essential are the people who are the VA--our professional 
and talented workforce. There's a long tradition of VA providing 
leadership in medicine, of setting standards in many fields. Where we 
lead, we must continue. Where we do not, we must regain that 
leadership. From delivering cutting-edge medical care to answering the 
more basic benefits inquiries, we will grow and retain a skilled, 
motivated, and client-oriented workforce. Training and continuous 
learning, communications and team-building, will be components of that 
culture.
    Second, results. At the end of each day our true measure of success 
is the timeliness, the quality, and the consistency of services and 
support we provide. You expect that, and I certainly expect it. We will 
set and meet objectives in each of those performance areas--timeliness, 
quality, consistency. We will all know the standards, perform to them 
or exceed them. Our processes will remain accessible, responsive, and 
transparent to ensure we address the needs of a diverse Veteran 
population dispersed geographically across our country. Success also 
includes cost-effectiveness. We are stewards of taxpayer dollars, and 
we will include appropriate metrics to assure quality in our care and 
management processes.
    Finally, forward-looking. We must seek out opportunities for 
delivering best services with available resources; we must continually 
challenge ourselves to look for ways to do things smarter and more 
effectively. We will aggressively leverage the world's best practices, 
our knowledge base, and our emerging technologies to increase our 
capabilities in areas such as health care, information management, and 
service delivery.
    In the near-term, I am focusing my energy on the development of a 
credible and adequate 2010 budget request as a priority, but the long-
term priority will always be to make the Department of Veterans Affairs 
a 21st century organization, singularly focused on the Nation's 
Veterans as its clients.
    This Committee is noted for its unwavering commitment to those 
Veterans. I will listen carefully to your concerns and your advice, and 
I will benefit from your counsel. I look forward to working with you to 
fulfill our covenant with the Nation's Veterans.

                                 <F-dash>
                   Statement of Hon. Ann Kirkpatrick

    Good morning, Mr. Chairman. It is an honor to serve with you and 
the other distinguished Members of the House Committee on Veterans' 
Affairs. As a new Member of the Committee, I look forward to working 
with and learning from my colleagues on both sides of the aisle to help 
improve the care and service our veterans deserve.
    Welcome also to Secretary Shinseki. Through a lifetime of service, 
you have proven to be a man that has always put country before politics 
and you are held in high regard by your fellow veterans. You have seen 
the military from many sides--first as a young officer, wounded in 
combat in Vietnam, and later, while leading the Army at the onset of 
the current conflicts in Iraq and Afghanistan. As a result, you have 
the unique opportunity to serve as a voice for veterans of all 
generations.
    This Committee, working aggressively in the 110th session of 
congress, saw the passage of unprecedented legislation. From an 
overhauled GI Bill that renews America's commitment to its combat 
veterans to passing only the third fully funded budget in the last 20 
years, this Committee has put you and the VA in a better position to 
care for all of our veterans. However, there is still much more to do. 
You've said frequently that it is leadership that finds opportunity, 
assesses risk, and then makes the difficult changes imperative to 
maintaining good organizations. Such leadership will be needed at every 
level of the VA, and I have faith that it will start with you.
    I look forward to working closely with you to ensure that every 
veteran gets the care and support that they have earned. Thank you 
again for all you have done.


                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                  February 13, 2009
Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``The State of 
the U.S. Department of Veterans Affairs'' on February 4, 2009, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on March 24, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,
                                                         BOB FILNER
                                                           Chairman

                               __________

                        Questions for the Record
                   The Honorable Bob Filner, Chairman
                  House Committee on Veterans' Affairs
                            February 4, 2009
          The State of the U.S. Department of Veterans Affairs

                    The Honorable Harry E. Mitchell

    Question: Reaching the millions of veterans who are not enrolled 
with the VA has been a top priority of mine. How do you envision the VA 
reaching out to veterans and their families? What methods of outreach 
do you intend to utilize?
    Response: Outreach to Veterans to inform them about the benefits 
and services they have earned through their service and sacrifice is a 
top priority for the Department of Veterans Affairs (VA). In 
recognition of this important objective and to improve our ongoing 
initiatives as part of a consistent framework, VA recently established 
a Strategic Communications Team to ensure that VA speaks with one voice 
on matters of importance to Veterans. Reaching out to Veterans not yet 
enrolled with VA is a goal of this effort. The following are 
descriptions of outreach methods the VA will pursue.
    The Veterans Health Administration's (VHA) outreach programs, 
especially for newly returning Veterans, are continuing, but are 
changing for the 21st Century VA. I am continuing to send letters to 
all separating OEF/OIF Veterans, thanking them for their service and 
inviting them to learn more about their benefits. VA continues to 
provide summaries of benefits to all separating servicemembers and 
copies of the special publication, A Summary of VA Benefits for 
National Guard and Reservists, to separating members of the National 
Guard and Reserves. VA is providing Iraqi Freedom Benefits Brochure, 
which summarizes basic health issues for Veterans deployed to Iraq, and 
our VA Health Care and Benefits Information for Veterans wallet card, 
which provides important contact information to separating members of 
the National Guard and Reserves.
    We are also continuing ``Welcome Home'' events for new Veterans and 
active duty servicemembers, offering health screenings, readjustment 
counseling, and information about employment, education, home loans, 
life insurance, transition and health care. VA facilities must conduct 
one such event each year, and many do more. VA also uses Post-
Deployment Health reassessment events, conducted by Department of 
Defense (DoD), to reach out to members of the National Guard and 
Reserves; participates in military conferences, Family Day events, Unit 
Reunions, Stand-downs and other local programs; and has created a Web 
site to provide information about VA to OEF/OIF Veterans and their 
families.
    In 2009, VHA intends to continue our program to publicize our 
Suicide Prevention hotline number by expanding our mass transit 
advertising to seven new cities and placing ads on 20,000 buses in mass 
transit systems throughout the Nation, as our two Public Service 
Announcements continue to air nationwide. We are developing plans to 
advise Veterans and their families of the 10-percent increase in income 
levels for eligibility of Priority 8 Veterans (these plans will include 
paid and unpaid advertising). We are creating a Public Service 
Announcement featuring Richard Petty to remind Veterans to drive 
safely, and every VHA facility is required to conduct a Safe Driving 
rally during the year. Finally, we will continue our efforts to reduce 
obesity and diabetes levels among enrolled and non-enrolled Veterans, 
and will work on de-stigmatizing mental illness among the Veteran 
population and throughout the Nation.

                    The Honorable Ciro D. Rodriguez

    Question: The Army is currently planning to build a completely new 
medical facility at Fort Bliss in El Paso, TX. Has the VA considered 
using the current Beaumont Medical Center facility when the Army 
relocates operations, and if so, has the VA been in discussion with DoD 
about the use of the facility? I see a great possibility for expansion 
of services to veterans there, particularly given the highly rural 
nature of the veterans between El Paso and San Antonio. Currently, 
services not able to be met at the El Paso VA must be met in 
Albuquerque, and services not able to be met in the Big Springs VA must 
be met in Amarillo. Both locations are more than 550 miles, one way, 
from some of our more highly rural veterans. An expansion in El Paso, 
along with the pilot program for highly rural veterans, would greatly 
enhance access to care.
    Response: VA and DoD leadership are working together on a local and 
national level to plan the appropriate strategy for VA in anticipation 
of the move of the William Beaumont Army Medical Center (WBAMC). Many 
options are under consideration. Due to the age of the current WBAMC 
building and VA's low inpatient workload demand, it is not cost-
effective or feasible for VA to assume control of the WBAMC building 
once it is vacated by the Army. However, the parties are giving serious 
consideration to shared inpatient and outpatient services at the new 
location. This arrangement will enable VA and DoD to sustain their 
active Joint Venture, which is beneficial to both entities and has the 
potential to increase the range of health care services provided in the 
El Paso community for Veterans and servicemembers.
    Section 403 of Public Law 110-387 directed the Secretary of VA to 
conduct a pilot program to provide covered health services to eligible 
Veterans through qualified non-VA health care providers. According to 
the statute, the pilot program must be conducted in at least five 
veterans integrated service networks (VISN). Based on the criteria in 
the statute, VISN 18 is one of the eligible locations for this pilot 
and includes part of Texas 23rd District.
    Our first and foremost priority is to ensure that our Veterans 
receive quality care through coordination between VA and non-VA 
providers. We have established a workgroup of representatives from 
wide-ranging functional areas to develop an implementation plan for 
this pilot program.
    There are two major issues that impact timely implementation of 
this pilot program. The first issue concerns the development of 
regulations to define the hardship provision in section 403(b)(2)(B). 
The second issue is that the definition of highly rural in the statute 
is different from VA's definition.

                       The Honorable Joe Donnelly

    Question 1: Mr. Secretary, accessibility to specialty care is an 
issue of particular concern to my district and too many districts 
nationwide. For example, St. Joseph County in my district has a 
population of more than a quarter million people, yet area veterans 
must too often drive more than 2 hours each way to get to the nearest 
VA hospital for specialty care. While there is an excellent outpatient 
clinic in South Bend, it is unable to provide many needed services. I 
would like to know what actions you envision taking during your tenure 
as VA Secretary in terms of the accessibility of specialty care to help 
reduce the often long drive times veterans nationwide are dealing with 
each day.
    Response: VA Northern Indiana Health Care System has medical 
centers located in Fort Wayne and Marion, Indiana, as well as community 
based outpatient clinics (CBOC) in South Bend, Goshen, and Muncie. When 
the current contract for the South Bend CBOC, located in St. Joseph 
County, Indiana, expires in August of this year, the new arrangement 
will expand capacity and add services. Additions will be cardiology, 
podiatry, wellness programs, ultrasound exams, and services for newly 
returning combat OEF/OIF Veterans. Special services such as Agent 
Orange, Persian Gulf, and compensation and pension evaluations may also 
be added. A new hub for home-based services (home visits) is being 
developed, allowing a significant increase in the coverage area for 
that service. Additional space will also be provided at or near the 
clinic to allow for the growth of mental health programs.
    This is in addition to ongoing improvement of access to services in 
other locations. In October 2008, VA Northern Indiana Health Care 
System opened a new CBOC in Goshen, Indiana. Another new clinic is 
being planned for Peru, Indiana (estimated to open in the fall of 
2009). Since October 2007, the volume of urology and physical therapy 
services purchased locally in South Bend has greatly increased. 
Telemedicine is being used at the South Bend CBOC for remote eye 
examinations and is being introduced for tele-mental health care. 
Increased nursing and telehealth services for house-bound veterans are 
being provided to help them avoid difficult travel.
    Question 2: Last Congress, Mr. Filner, Mr. Hall, myself, and many 
others on this Committee all worked on reforming the disability claims 
process, and this will continue to be a top priority during the 111th 
Congress. I would like to know what your plans are to reduce the 
disability claims backlog, wait times, and bureaucratic barriers faced 
by hundreds of thousands of veterans applying for disability claims.
    Response: It is critical that we reduce the claims backlog as 
quickly as possible. We must simultaneously ensure that efforts to make 
the adjudication process paperless are successful and timely. The 
Veterans Benefit Administration (VBA) must move to an integrated, all 
electronic claims processing system. While I appreciate that this will 
not be easy, I also understand that it is essential if we are to 
modernize and streamline the benefit application, eligibility 
determination, and benefit administration processes; reduce wait times 
and backlogs; and deliver the benefits that our Veterans have earned. A 
plan must be developed with reasonably aggressive timelines to validate 
the current benefits administration business processes with an eye to 
the role of rules engines. Once the plan is adopted, I intend to move 
expeditiously to acquire the technology and systems to support the 
delivery of benefits to Veterans.

                     The Honorable Timothy J. Walz

    Questions 1: In your short tenure, you have already made clear your 
commitment to addressing the seamless transition of our returning 
service men and women through cooperation between the Department of 
Veterans Affairs (VA) and the Department of Defense (DoD). In this 
connection, you stated at the hearing that the Secretaries of each 
Department themselves would be chairing the next meeting of the Senior 
Oversight Committee (SOC). Is that a format for the SOC you would like 
to make permanent? Do you have other recommendations for how the SOC 
might be structured to maximize seamless cooperation between DoD and 
VA?
    Response: The Secretaries of Defense and Veterans Affairs did, in 
fact, cochair the SOC meeting of 24 Feb. The Secretaries of Defense and 
Veterans Affairs have the discretion to use the collaborative resources 
of the SOC to develop rapid response to joint issues. General 
leadership of the SOC still falls to the Deputy Secretary of Defense 
and Deputy Secretary of VA per the SOC charter, but for pressing 
issues, the Secretary VA and Secretary of Defense could cochair the 
SOC.
    Work for the SOC currently begins with the Wounded, Ill and Injured 
Overarching Integrated Product Team (WII-OIPT), who determine if a task 
force recommendation or legal mandate fits within the scope of the SOC. 
The SOC assigns the recommendation or mandate to one of eight jointly 
staffed lines of action. The OIPT meets weekly to assess progress of 
the lines of action and to resolve challenges to progress. When 
resolution requires a decision by the Departments, the OIPT places the 
decision on the SOC agenda and schedules a SOC meeting. SOC Co-Chairs 
can also request a briefing on a joint issue or a progress report on 
OIPT work. VA would like to preserve the architecture of the OIPT lines 
of action meeting weekly, forming decision requests to the SOC co-
chaired by the Deputy Secretaries, who meet as needed but at a minimum 
of once a month to preserve momentum.
    Regarding the National Defense Authorization Act (NDAA) 2009 726 
mandate to submit by August 31 a joint report to Congress on the 
advisability of continuing the SOC after 2009, VA and DoD are currently 
in discussions on this topic.
    Question 2: You stated at the hearing that you have broached with 
Secretary Gates the idea of mandatory enrollment in the VA for our 
servicemembers. Can you please elaborate on how that process might 
work?
Uniform Registration
    Response: VA and DoD need to collaborate to make relevant 
information universally and uniformly available for all persons who 
enter service whether active duty or mobilized Guard or Reservists and 
those transitioning to Veteran status.
    VA proposes to systematically register DoD servicemembers within VA 
at the point of accession. VA will extend current VA and DoD 
information sharing to seamlessly make military service and related 
information available to VA.
    Uniform registration would function using the following basic 
principles:

    1.  At the point of accession (entry into uniformed service) DoD 
would register a servicemember in the appropriate DoD system.

    2.  When DoD registers (gains, enlists, re-enlists) a servicemember 
VA will receive simultaneous notification from DoD of servicemember 
registration.

    3.  VA will then register the servicemember into the VA enterprise 
registration system. This will assign a unique universal VA identifier 
to each servicemember, which will enable VA to perform systematic 
outreach, automate eligibility determination, and improve the 
efficiency and validity of the delivery of VA benefits.

    4.  VA proposes to enhance its health and benefits systems to 
receive automatic updates based on key life events of servicemembers. 
VA's systems will use comprehensive servicemember information to 
determine entitlement and eligibility for benefits.

                       The Honorable Glenn C. Nye

    Question 1: Many of our veterans are unaware of the tremendous 
education benefits available to them under the new GI Bill. How will 
the VA ensure that all aspects of the new Post-9/11 GI Bill are not 
only implemented on time, but that the program's details are made 
available to all veterans?
    Response: To ensure that all veterans are aware of the program's 
details, VA is currently in the process of mailing a Post-9/11 GI Bill 
informational outreach letter to all Veterans with 30 days of service 
after September 10, 2001. In addition to this effort, the GI Bill Web 
site has been updated to include information pertaining to the new 
program. The Web site also allows individuals to sign up to receive 
notifications when any new or updated information is posted.
    VA is pursuing two parallel strategies for implementation of the 
Post-9/11 GI Bill. Our interim strategy involves employing manual 
processing procedures and modifying existing claims processing and 
payment systems to accommodate the new benefit program. This will be 
the strategy VA uses to pay benefits beginning August 1, 2009. The 
interim strategy will be deployed in phases based on the functionality 
necessary at different times in the claims adjudication process. This 
will allow developers to focus on the highest priority functionality 
necessary to meet the August 1, 2009, deadline, and deploy expanded 
functionality once VA has begun to administer the Post-9/11 GI Bill.
    The long-term strategy involves working with the Navy's Space and 
Warfare Command to develop an automated claims processing solution that 
will ultimately become the primary system for processing and paying 
Post-9/11 GI Bill claims.
    VA is working diligently at all levels within the organization to 
ensure the coordination of resources to meet this aggressive deadline. 
VA is also cooperating fully with all Congressionally mandated 
oversight requirements for the implementation of chapter 33.
    Question 2: When active duty soldiers are discharged, the 
transition from a DoDbased system to a VA-based system can take months, 
and in some cases, years. section 1618 of the FY 2008 National Defense 
Authorization Act required ``planning for the seamless transition of 
[members of the Armed Forces] from care through the Department of 
Defense to care through the Department of Veterans Affairs.'' In light 
of recent reports of increased suicide by members of the Armed Forces 
and the pervasive issue of traumatic brain injury, what steps are you 
taking to ensure a more seamless transition for our heroic men and 
women?
    Response: You raise several issues of significant importance to VA: 
traumatic brain injury, suicide and mental health, and seamless 
transition. These are complex and distinct, but also overlap at times. 
VA recognizes the transition from military to civilian life is a 
stressful and busy time for Veterans and their families, and we are 
working every day to ease that shift as much as possible. VA is 
reaching out to Veterans before, during, and after separation to 
establish a continuum of care. We must note that transition is not 
always one-way. Members of the Reserves and the National Guard who have 
already attained Veteran status can again become servicemembers, 
depending upon whether they have been activated. In this specific 
population, it is essential that the Departments work together.

Seamless Transition
    Seriously Ill VA currently maintains a variety of programs to 
respond to the specific needs of separating OEF/OIF servicemembers to 
assist them in transitioning from military service to Veteran status. 
For severely injured Veterans and servicemembers, VA has placed 27 
social work or nurse case manager liaisons at 13 military treatment 
facilities (MTF) across the country to identify and address patients' 
clinical needs as they transfer from DoD facilities to VA care. 
Similarly, VA works with approximately 90 military liaisons located in 
VHA facilities to provide on-site, non-clinical support for Veterans or 
servicemembers at VA's polytrauma facilities and other locations.
    Federal Recovery Coordination Program In October 2007, VA partnered 
with DoD to establish the joint VA/DoD Federal Recovery Coordination 
Program (FRCP). A Federal recovery coordinator (FRC) identifies and 
integrates clinical and non-clinical care and services for the 
seriously wounded, ill, and injured servicemember, Veteran and families 
through recovery, rehabilitation, and community reintegration 
throughout an entire lifetime continuum of care. The FRCP is intended 
to serve all seriously injured servicemembers and Veterans, regardless 
of where they receive their care.
    Family Support for Severely Injured Fisher Houses provide an 
important complement of services for families of severely injured 
servicemembers and Veterans and has helped 345 OEF/OIF families. Fisher 
Houses are designed to be ``homes away from home'' providing a 
comfortable environment where families can come together to provide 
support to one another. There are currently 31 Fisher Houses operating 
or in development.
    OEF/OIF Program Managers/OEF/OIF Case Managers Every VA medical 
center has established an OEF/OIF program manager. This individual, 
usually a social worker or nurse, manages programs for OEF/OIF 
Veterans, coordinates the efforts of clinical case managers and 
transition patient advocates, links with MTFs to ease patient 
transfers, and works with the Veterans Benefits Administration (VBA) to 
track claims. Each VISN has also identified an OEF/OIF program manager 
to coordinate inter-facility issues and practices.
    OEF/OIF case managers initiate contact with patients and families 
before they transfer from a military treatment facility (if they have 
received care there, otherwise, they work with patients as they present 
for care) and participate in an interdisciplinary team assigned to 
treat the Veteran's medical needs. The OEF/OIF case manager is 
responsible for planning and coordinating all of the patient's health 
care needs.
    Transition of Ill and Injured servicemembers and Veterans, 
Operationally The key to transitioning these injured and ill 
servicemembers and Veterans are the VA liaisons for health care 
strategically placed in MTFs with concentrations of recovering 
servicemembers returning from Afghanistan and Iraq. VA has stationed 27 
VA social workers and nurses as VA liaisons for health care at 13 MTFs 
to transition ill and injured servicemembers from DoD to the VA system 
of care. The VA liaisons facilitate the transfer of servicemembers and 
Veterans from the MTF to VA polytrauma rehabilitation centers or 
medical centers closest to their homes for the most appropriate 
specialized services their medical condition require.
    In addition, each VA medical center has an OEF/OIF care management 
team in place to coordinate patient care activities and ensure that 
servicemembers and Veterans are receiving patient-centered, integrated 
care and benefits. All OEF/OIF Veterans are assessed to determine if 
the Veteran and family would benefit from care management services. If 
so, a nurse or social worker care manager is assigned as the single 
point of contact to assist in coordinating their complex health care 
and psychosocial needs. Members of the OEF/OIF care management team 
include: a program manager, clinical care managers, a veterans service 
representative, and a transition patient advocate. The program manager, 
who is either a nurse or social worker, has overall administrative and 
clinical responsibility for the team and ensures that all OEF/OIF 
Veterans are screened for care management. Severely injured OEF/OIF 
Veterans are provided with a care manager, and any other OEF/OIF 
Veteran screened may be assigned a care manager upon request. Clinical 
care managers, who are either nurses or social workers, coordinate 
patient care activities and ensure that all clinicians providing care 
to the patient are doing so in a cohesive and integrated manner. VBA 
team members assist Veterans by educating them about VA benefits and 
assisting with the benefit application process. The transition patient 
advocate (TPA) facilitates activities between the VA medical center, 
VBA and the patient/family. As the advocate, the TPA acts as a 
communicator, facilitator and problem solver.
    Traumatic Brain Injury Traumatic brain injury (TBI) is a serious 
medical condition, and VA and DoD are individually and collaboratively 
identifying and treating this condition in returning Veterans and 
servicemembers. Those with moderate to severe TBI are readily 
identifiable and receive treatment in DoD's system, VA's polytrauma 
system of care, or both. VA implemented comprehensive TBI screening in 
April 2007 for Veterans returning from OEF/OIF to provide a systematic 
approach to identify and treat Veterans who may have experienced a 
brain injury. VA instituted this measure to assist Veterans and 
servicemembers with mild TBI. All OEF/OIF Veterans receiving medical 
care within VA who screen positive for possible TBI are provided a 
referral for follow-up by a TBI specialty team.
    Additionally, VA has executed a number of initiatives to ensure 
that Veterans and servicemembers with TBI receive follow up care for 
their medical and rehabilitation needs. These initiatives include: 
continued development in our networks of the polytrauma/TBI system of 
care and enhancement of clinical expertise in the area of TBI care; 
continued enhancement of the TBI screening and evaluation program; 
implementation of a care management model that emphasizes care 
coordination and long-term follow-up; deployment of standardized 
national templates to document results of the TBI evaluation and the 
rehabilitation plan of care; and development of a proposal to revise 
the International Classification of Diseases 9th Revision (ICD-9) codes 
to improve the identification and classification of TBI.
    Demobilization Transition for Non-hospitalized Veterans VA and DoD 
have established a comprehensive, standardized enrollment process at 61 
demobilization sites (15 Army, 4 Navy, 3 Marine Corps, 3 Coast Guard, 
and 36 Air Force). At demobilization events, VA has contacted more than 
31,000 members of the Reserve Component and enrolled more than 29,000 
of them for VA health care. DoD provides VA with dates, numbers of 
servicemembers demobilizing and locations for Reserve Component units 
where demobilization events occur. At these events, VA representatives 
from the local medical center, benefits specialists and vet center 
counselors present for approximately 45 minutes during mandatory 
demobilization briefings. During this time, Veterans receive current 
information about enrollment and eligibility, including the extended 
period in which those who served in combat may enroll for VA health 
care following their separation from active duty. They are also 
educated about the period of eligibility for dental benefits, which was 
extended from 90 days to 180 days following separations from service by 
NDAA for Fiscal Year 2008.
    The enrollment process has been streamlined, and Veterans are shown 
how to complete the Application for Medical Benefits (the 1010EZ), 
which begins the enrollment process for VA health care. VA staff 
members also discuss how to make an appointment for an initial 
examination for service-related conditions and answer questions about 
the process. These completed forms are collected at the end of each 
session. Staff at the supporting facility match the 1010EZ with a copy 
of the Veteran's DD214, discharge papers and separation documents, scan 
them, and email or mail them to the VA medical center where the Veteran 
chooses to receive care. The receiving facility staff enters this 
information into VA's electronic registration system; VA's Health 
Eligibility Center staff will then complete the enrollment process and 
send a letter to the Veteran verifying enrollment.
    In response to the growing numbers of Veterans returning from 
combat in OEF/OIF, the vet centers initiated an aggressive outreach 
campaign to welcome home and educate returning servicemembers at 
military demobilization and National Guard and Reserve sites. Through 
its community outreach and brokering efforts, the Vet Center program 
also provides many Veterans the means of access to other VA programs. 
To augment this effort, the Vet Center program recruited and hired 100 
OEF/OIF Veterans to provide the bulk of this outreach to their fellow 
Veterans. To improve the quality of its outreach services, in June 
2005, the vet centers began documenting every OEF/OIF Veteran provided 
with outreach services. The program's focus on aggressive outreach 
activities has resulted in the provision of timely vet center services 
to 346,796 OEF/OIF Veterans cumulative through December 31, 2008. Of 
the total, 260,885 are documented outreach contacts primarily at 
military demobilization, National Guard and Reserve component sites. 
The remaining 85,911 Veterans were provided with readjustment 
counseling services in the vet centers.
    Post-Deployment Health Reassessment (PDHRA) Following 
demobilization, DoD regularly holds post-deployment health 
reassessments (PDHRA) for returning combat Guard and Reservists between 
3 and 6 months after separation from active duty. The PDHRA is a DoD 
health protection program designed to enhance the deployment-related 
continuum of care. PDHRA's provide education, screening, and a global 
health assessment to help facilitate care for deployment-related 
physical and mental health concerns. Completion of the PDHRA is 
mandatory for all members of the National Guard or Reserve who complete 
the post-deployment health assessment at the demobilization sites.
    DoD provides VA a list of locations and times where these events 
will take place--often at the Guard or Reserve unit. VA outreach staff 
from local medical centers and vet centers participates at these 
events. DoD staff conduct screening exams for Veterans, and VA staff 
are available to coordinate referrals for any Veteran interested in 
seeking care from a VA facility. Vet center staff members are also 
present to assist Veterans with enrollment in VA for health care or 
counseling at a local vet center.
    VA's PDHRA mission is threefold: enroll eligible Reserve Component 
servicemembers into VA health care; provide information on VA benefits 
and services; and provide assistance in scheduling follow-up 
appointments. VA medical center and vet center representatives provide 
post-event support for all onsite and call center PDHRA events.
    Between FY 2006 and January 31, 2009, VA has supported DoD in 
completing more than 250,000 PDHRA screens resulting in 96,638 total 
referrals, of which 52,780 were for VA medical centers and 22,801 were 
for vet centers.
    Veteran Call Center Initiative VA began a Veteran call center 
initiative in May 2008 to reach out to OEF/OIF Veterans who separated 
between fiscal year (FY) 2002 and July 2008. The call center 
representatives inform Veterans of their benefits, including enhanced 
health care enrollment opportunities, and to see if VA can assist in 
any way. This effort initially focused on approximately 15,500 Veterans 
VA believed had injuries or illnesses that might need care management. 
The call center also contacted any combat Veteran who had never used a 
VA medical facility before. Almost 38 percent of those we spoke with 
requested information or assistance as a result of the outreach. The 
call center initiative continues today, focusing on those Veterans who 
have separated since. As of March 4, 2009, VA has called 632,010 
Veterans and spoken with 151,451 of them. We have sent almost 34,000 
information packages to Veterans at their request.
    Yellow Ribbon Reintegration Program VA is also supporting OEF/OIF 
transition through the Yellow Ribbon Reintegration program. VA 
supported 130 Reserve and Guard Yellow Ribbon events in FY 2008 through 
the middle of February 2009. A total 19,768 servicemembers attended 
these events, and 14,934 family members did, too. VA provides 
information, assistance, and referrals to servicemembers and helps them 
enroll in VA care. VA has assigned a full-time liaison with the Yellow 
Ribbon reintegration office in DoD to support the development and 
implementation of additional programs and outreach. The Yellow Ribbon 
reintegration program is currently active in 54 States and territories, 
and engages servicemembers and their families before, during, and after 
deployment, including 30, 60, and 90 days after deployment.
    Question 3: As you know, more veterans who fought in Vietnam have 
committed suicide than were killed in action. This is an absolute 
tragedy. Recently, suicide rates among newly returned veterans from the 
wars in Iraq and Afghanistan have been the highest in recorded history. 
How can we better address mental health issues and make certain our 
service men and women are receiving the care they deserve?

Suicide
    Response: Our ongoing efforts to reduce Veteran suicide provide 
opportunities for Veterans, servicemembers, or their friends and family 
to speak with a trained counselor and receive assistance. In July 2007, 
VA launched a Veteran's suicide prevention hotline as a collaborative 
effort with the Department of Health and Human Services Substance Abuse 
and Mental Health Services Administration and its lifeline program. 
Through this partnership, VA's program benefits from several years of 
publicity for the lifeline program. In turn, through the partnership, 
VA has been able to support awareness of the program for all Americans, 
as well as for Veterans. When someone calls the national hotline 
number, 1-800-273-TALK, they receive a message saying that if they are 
a U.S. military Veteran, or if they are calling about a Veteran, they 
should press ``1.'' When they do so, they are connected quickly to the 
VA hotline call center in Canandaigua, NY.
    For a substantial number of Veterans, the hotline has directly 
facilitated mental health care; for others it has provided information 
and support that may facilitate care less directly; and for still 
others, it has provided problem-solving about perceived problems with 
ongoing care. Since the hotline was activated, VA has received more 
than 110,000 calls, over 50,000 were from self-identified Veterans, 
6,800 were from Veteran's families and friends, and 1,200 were active 
duty, resulting in over 10,000 referrals to a VA suicide prevention 
coordinator and almost 3,000 rescues where a life was probably saved.
    The Risk of Suicide among Vietnam Veterans It has been widely 
reported in the media that Vietnam Veterans are at increased risk of 
suicide and that the number of suicides among Vietnam Veterans exceeds 
the number killed in action in Vietnam. However, the findings of 
published mortality studies of Vietnam Veterans indicate that Vietnam 
Veterans are not, in fact, at increased risk for suicide, whether 
compared to the U.S. population or to non-Vietnam Veterans. Seven 
Vietnam Veteran studies conducted by the VA's Environmental 
Epidemiology Service assessed cause-specific mortality risks of various 
cohorts of Vietnam Veterans, including Army, Marine, Army Chemical 
Corps Veterans, and female Vietnam Veterans.\1\<SUP>-7</SUP> None of 
these studies of in-theater Vietnam Veterans reported a statistically 
significant increased risk of suicide among Vietnam Veterans when their 
mortality was compared to that of non-Vietnam Veterans or the U.S. 
general population. Studies conducted by the Centers for Disease 
Control and Prevention (CDC) and the U.S. Air Force also did not find 
any increased risk of suicide among Vietnam Veterans when their 
mortality was compared to that of either the U.S. general population or 
non-Vietnam Veterans.\8\<SUP>-10</SUP>
---------------------------------------------------------------------------
    \1\ Breslin P, Kang HK, Lee Y, Burt V, Shepard BM. Proportionate 
Mortality Study of Army and Marine Corps Veterans of the Vietnam War. 
Journal of Occupational Medicine 1988; 30:412-419.
    \2\ Thomas TL, Kang HK. Mortality and Morbidity among Army Chemical 
Corps Vietnam Veterans: A preliminary report. American Journal of 
Industrial Medicine 1990; 18:665-673.
    \3\ Bullman TA, Kang HK, Watanabe KK. Proportionate mortality among 
U.S. Army Vietnam Veterans who served in Military Region I. American 
Journal of Epidemiology 1990; 132: 670-674.
    \4\ Thomas TL, Kang HK, Dalager NA. Mortality among women Vietnam 
Veterans, 1973-1987. American Journal of Epidemiology 1991; 134:973-
980.
    \5\ Watanabe KK, Kang HK, Thomas TL. Mortality among Vietnam 
Veterans: With methodological considerations. Journal of Occupational 
Medicine 1991; 33:780-785.
    \6\ Watanabe KK, Kang HK. Military service in Vietnam and the risk 
of death from trauma and selected cancer. Annals of Epidemiology 1995; 
5:407-412.
    \7\ Cypel Y, Kang H. Mortality patterns among women Vietnam-era 
Veterans: Results of a retrospective cohort study. Annals of 
Epidemiology 2008; 18:244-252.
    \8\ Michalek JE, Ketchum NS, Akhtar F. Postservice mortality of 
U.S. Air Force Veterans occupationally exposed to herbicides in 
Vietnam: 15-Year Follow-up. American Journal of Epidemiology 1998; 148: 
786-792.
    \9\ Boehmer T, Flanders D, et al. Postservice mortality in Vietnam 
Veterans: 30-year follow-up. Archives of Internal Medicine 2004; 164: 
1908-1916.
    \10\ Michalek JE, Ketchum NS. Postservice mortality of Air Force 
Veterans occupationally exposed to herbicides during the Vietnam War: 
20-year follow-up results. Military Medicine 2005: 170: 406-413.
---------------------------------------------------------------------------
    While Vietnam Veterans in general did not have an increased risk of 
suicide, two studies found that specific groups of Vietnam Veterans 
were at increased risk of suicide. In one study, Vietnam Veterans with 
a diagnosis of post-traumatic stress disorder (PTSD) had an almost 
sevenfold statistically significant increased risk of suicide compared 
to the U.S. general population (SMR, 6.74, 95 percent C.I., 4.40-
9.87).\11\ Another specific group of Vietnam Veterans with a 
statistically significant increased risk of suicide were those who were 
wounded in Vietnam.\12\ Compared to the U.S. general population, 
Vietnam Veterans who were hospitalized because of a combat wound or 
wounded more than once had statistically significant increased risks of 
suicide, SMR, 1.22 (95 percent, C.I., 1.00-1.46), and SMR, 1.58 (95 
percent, C.I., 1.06-2.26), respectively. Based on the aforementioned 
studies it seems that while specific groups of Vietnam Veterans are at 
increased risk for suicide, when examined collectively not all Vietnam 
Veterans are at increased risk for suicide.
    Because the universe of all Vietnam Veterans is unknown, no study 
has determined the total number of suicides among all Vietnam Veterans. 
Using two Vietnam Veteran cohorts examined in other studies, a 1990 
study estimated that there were 9,000 suicides among all Vietnam 
Veterans through 1984.\13\ As the Vietnam Veteran cohort ages, its 
overall mortality rate will increase; contributing to this increase 
will be deaths due to diseases and traumatic deaths, including 
suicides. According to DoD, there were 40,934 U.S. military personnel 
killed in action (KIA) in Vietnam. At some point in time it is possible 
the number of suicides among Vietnam Veterans could exceed the number 
KIA, however as the previously cited studies have indicated, this 
number and resultant rate would not be expected to exceed that observed 
among the U.S. population.
---------------------------------------------------------------------------
    \11\ Bullman TA, Kang HK. Posttraumatic stress disorder and the 
risk of traumatic deaths among Vietnam Veterans. Journal of Nervous and 
Mental Disease 1994; 182:604-610.
    \12\ Bullman TA, Kang HK. Risk of suicide among wounded Vietnam 
Veterans. American Journal of Public Health 1996;86:662-667.
    \13\ Pollock DA, Rhodes P, Boyle CA, et al. Estimating the number 
of suicides among Vietnam Veterans. American Journal of Psychiatry 
1990; 146: 772-776.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                   February 9, 2009

Hon. Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420
Dear Secretary Shinseki,
    In reference to our Committee hearing of February 4, 2009, I would 
appreciate your response to the enclosed additional questions for the 
record by close of business Wednesday, March 4, 2009.
    It would be appreciated if you could provide your answers 
consecutively on letter size paper, single spaced. Please restate the 
question in its entirety before providing the answer.
    Thank you for your cooperation in this matter.

            Sincerely,
                                                        Steve Buyer
                                          Ranking Republican Member
SB:dwc
Enclosure

                               __________

                        Questions for the Record
          The Honorable Steve Buyer, Ranking Republican Member
                  House Committee on Veterans' Affairs
                            February 4, 2009
          The State of the U.S. Department of Veterans Affairs

    Question 1: The President pledged to sign an executive order to 
rescind VA's 2003 decision to suspend enrollment of Priority group 8 
veterans those veterans without service connected conditions and higher 
incomes. What are the Department's plans to lift the suspension? How 
will the Department address the additional demand which could severely 
strain VA's current capacity to provide timely, quality care for all 
enrolled veterans--particularly the highest priority veterans returning 
OIF/OEF veterans, veterans with service-connected disabilities, special 
needs and indigent veterans? Please estimate of the cost of opening up 
enrollment to all priority group 8 veterans?
    Response: The Department of Veterans Affairs (VA) is currently 
planning to re-open enrollment to a segment of Priority Group 8 
Veterans whose income exceeds the current VA national means test and 
geographic means test income thresholds by 10 percent or less. This 
scenario is projected to increase enrollment by approximately 260,000 
Veterans in fiscal year (FY) 2009. Public Law 110-329 provided $543 
million in additional funding to support expanded enrollment: $375 
million for medical services, $100 million for medical support and 
compliance, and $68 million for medical facilities.
    It is important to note that Operation Enduring Freedom/Operation 
Iraqi Freedom (OEF/OIF) Veterans represent a small but important 
component of VA's enrollee and user population. Veterans with service 
in Afghanistan and Iraq continue to account for a rising proportion of 
our total Veteran patient population. In 2008, they comprised 
approximately 5 percent of all Veterans receiving VA health care 
compared to 3.1 percent in 2006. Since the onset of combat operations 
in Afghanistan and Iraq, VA has provided new services and adjusted its 
resource allocations to address the unique medical needs of returning 
Veterans. When OEF/OIF Veterans seek care from VA they are generally 
placed in Priority Group 6 and make no copayments for conditions 
potentially related to their military service. As planned, there will 
be no additional stressors on our veterans, irrespective of their 
priority.
    Subsequent expansions of enrollment opportunities to additional 
Priority Group 8 Veterans would require similar investments and would 
need to be phased in gradually to avoid declines in quality or 
timeliness. Pursuant to 38 CFR 17.49, VA resources are focused on its 
highest priority medical care mission--(a) Veterans with service-
connected disabilities rated 50 percent or greater based on one or more 
disabilities or unemployability; and (b) Veterans needing care for a 
service-connected disability.
    According to the report (Analysis of the Requirements to Reopen 
Enrollment of Priority 8 Veterans) submitted in early 2008 to the House 
and Senate Veterans' Affairs Committees, VA determined that the first 
year cost of full, immediate re-opening of enrollment would cost $3.1 
billion, escalating to 5 and 10 year costs of $16.9 billion and $39 
billion, respectively. These estimates do not include capital costs.
    Question 2: What impact would lifting the suspension of Priority 8 
enrollments have on facility operations and waiting times for medical 
appointments?
    Response: With our current plan there will be no major impact. 
However, a new policy that would require a full and instantaneous 
repeal of the suspension of enrolling Priority 8 Veterans would have 
had a significantly different outcome than a policy that calls for a 
gradual change in the income threshold to allow additional Veterans to 
enroll in VA's health care system. VA, like the civilian sector, faces 
challenges in terms of human and capital resources, particularly in 
rural and highly rural areas. VA is carefully evaluating its 
infrastructure and resources in determining how to best increase 
enrollment of Priority 8 Veterans while maintaining a high standard of 
quality care and timely access to care. VA is projecting that it can 
reasonably re-open enrollment to Priority 8 Veterans whose income 
exceeds the current VA national means test and geographic means test 
income thresholds by 10 percent or less by July without adversely 
impacting the delivery of high quality health care to the Veterans we 
serve.
    Question 3: Can VA currently meet the demand for dental services 
for recently separated OIF/OEF servicemembers and all veterans with 
service-connected dental conditions? If not, what are your plans for 
increasing VA's capacity to provide dental care? What is your timeline 
for taking action?
    Response: VA is able to meet the demand for dental services from 
both current and newly enrolled Veterans, including recently separated 
OEF/OIF Veterans, whether they have service-connected dental conditions 
or not. Over the last 2-1/2 years, VA has made considerable progress in 
reducing the dental wait list from more than 14,000 in October 2006 to 
approximately 1,000 today. If future indications suggest a need to 
adjust resources, VA will do so.
    Recently discharged Veterans qualify for Class II dental benefits 
if they have completed a period of active military service of at least 
90 days and the military service does not certify that the individual 
received a dental examination or treatment within a period of 90 days 
prior to discharge. This one-time dental benefit consists of one 
episode of dental care for treatment reasonably necessary to correct 
dental conditions present at the time of discharge. Recently discharged 
Veterans generally have 180 days after their discharge to apply for 
these dental benefits.
    Question 4: What are the Department's top priorities that will be 
addressed in the budget for FY 2010?
    Response: There are several Presidential initiatives that will be 
highlighted in the budget, all of which are critical to transforming VA 
into a 21st Century organization. These are:

    <bullet>  Fully fund health care to meet the needs of America's 
Veterans.
    <bullet>  Gradually expand health care eligibility for some 
Priority 8 Veterans.
    <bullet>  Enhance outreach and services related to mental health 
care and cognitive injuries with a focus on access for Veterans in 
rural areas.
    <bullet>  Invest in better technology to deliver services and 
benefits to Veterans with the timeliness, quality, and efficiency they 
deserve.
    <bullet>  Provide greater benefits for Veterans who are medically 
retired from active duty.
    <bullet>  Combat homelessness by safeguarding vulnerable Veterans.
    <bullet>  Ensure timely implementation of the comprehensive 
education benefits Veterans earn through their dedicated service.

    Question 5: Does the Department expect to have any carryover funds 
from FY 2009? If so, how much will be carried over and from which 
accounts?
    Response: VA is currently evaluating its estimate of potential 
carryover funds. This information will be included in VA's 
Congressional justifications that will be presented to Congress in mid 
to late April.
    Question 6: Please provide your views on whether the Department 
should implement a disability claims system which would operate like 
the IRS where VA would grant every Veteran's claim without adjudication 
and only audit some number of these claims?
    Response: VA recognizes that time is of the essence in 
substantiating claims, that is why VA and the Department of Defense 
(DoD) have developed a disability evaluation system pilot program, 
which enables wounded servicemembers leaving the military to access 
their Veterans benefits through a streamlined disability evaluation 
program. The VA benefit-determination process is accelerated by 
requiring a single disability examination and a single disability 
rating for use by both DoD and VA. This pilot program has been underway 
since November 2007 in the National Capitol Region, and it is being 
expanded to 19 additional military facilities around the country. In 
the pilot, servicemembers file claims immediately after DoD determines 
that the member is unfit for further military duty and receives a 
medical evaluation. VA then prepares a rating for all conditions 
claimed by the servicemember. DoD uses the VA rating for purposes of 
determining whether the member is entitled to severance pay or retired 
pay, and VA awards disability compensation to the member based on the 
rating immediately after the time of discharge.
    Also, VA has operated the benefits delivery at discharge (BDD) 
program for servicemembers for the past few years to expedite receipt 
of VA disability compensation. Under this program, servicemembers may 
apply for VA disability compensation if they are between 60 and 180 
days from separation from service. VA conducts the required physical 
examinations, reviews service medical records, and prepares a 
preliminary rating decision prior to or shortly after discharge so that 
benefits can be awarded shortly after discharge. The goal of the 
program is to provide disability compensation to Veterans within 60 
days after discharge from service.
    VA is committed to working with Congress to improve service 
delivery to America's disabled Veterans through process simplification, 
workforce restructuring, the application of technology, joint efforts 
and strengthened data exchange with the military services, maintaining 
adequate resources, and other efforts. By committing to a solution, we 
are ensuring that we are providing timely benefits in a respectable 
fashion.
    Question 7: Public Law 110-389 contains provisions that formalized 
VA's authority to form a partnership with U.S. Paralympics to increase 
disabled veteran participation in sports from the grass roots through 
elite competition. That partnership includes an authorization of $10 
million to be funneled through U.S. Paralympics to local disabled 
sports organizations and for a per diem payment to disabled veteran 
athletes under certain circumstances.
    Public Law 110-389 also requires VA to establish the ``OFFICE OF 
NATIONAL VETERANS SPORTS PROGRAMS AND SPECIAL EVENTS'' to manage the 
program. Please provide the Committee with an update on progress toward 
establishing the office and designating the Director of the office as 
well as the expanded MOU with U.S. Paralympics required by the law?
    Response: VA has taken action to implement the provisions of Public 
Law 110-389 to form a partnership with the U.S. Paralympics and 
establish an Office of National Veterans Sports Programs and Special 
Events. The new office will be placed within the Office of the 
Secretary.
    Question 8: Please specify any improvements you believe are needed 
within VA's mental health care programs.
    Response: Over the past 4-1/2 years, VA has been enhancing its 
processes according to the principles outlined in VA's mental health 
strategic plan, developed in 2004. These enhancements have improved the 
capacity of mental health services and supported the delivery of 
evidence-based practices and treatments for Veterans. VA's treatment 
approaches are as well-grounded in research as are treatments for most 
other common medical conditions. VA is currently implementing across 
its system evidence-based treatments ranging from exposure-based 
psychotherapies for posttraumatic stress disorder in returning Veterans 
to skills training for those with serious mental illness and persistent 
symptoms. Nevertheless, we recognize more needs to be completed to 
further support quality care. This includes additional research. VA 
also has additional work to do translating research findings into 
advances in practice and policy.
    We also recognize more work must be done to overcome the stigma of 
seeking mental health care. To this end, VA supports public information 
campaigns and provides mental health care and readjustment counseling 
in several different environments. These include VA Medical Centers and 
clinics as well as Vet Centers; there are strong, mutual interactions 
between these two environments of care. Another key element has been 
VA's expansion of mental health services through its integration into 
primary care settings. Research demonstrates that consumers prefer 
integrated care and are much more likely to engage in mental health 
services when they are delivered in a primary care setting. VA believes 
Veterans receive better health care when their mental and physical 
needs are addressed in a coordinated and holistic manner.
    Demonstrating the Department's commitment to prioritizing mental 
health care, VA has hired more than 4,000 mental health professionals 
and support staff since 2004 for a total of 18,000 staff and increased 
its mental health budget to almost $4 billion. We have expanded hours 
of operation and established standards of providing initial evaluations 
of all patients with mental health issues within 24 hours, providing 
urgent care immediately. We are close to meeting our new standard of 
care: to see all new patients seeking a mental health care appointment 
within 14 days of their requested date 95 percent of the time.
    To consolidate and extend these advances in mental health services, 
VA recently adopted a Handbook on ``Uniform Mental Health Services'' in 
VA Medical Centers and Clinics that includes requirements that mental 
health services must be available for all enrolled Veterans who need 
them. This is an ambitious and unprecedented document that clearly 
defines VA's commitment to sustained, high quality mental health care. 
As VA moves toward implementation of the Handbook, it is undertaking a 
continuous review of trends in patient demand, system resources and 
clinical outcomes. If these measures suggest additional resources or 
modification in treatment approaches are warranted, VA will respond as 
needed.
    Question 9: What do you see as the significant unmet needs of 
veterans with TBI and what new plans does the VA have for improving 
care for TBI?
    Response: Veterans with traumatic brain injury (TBI) may have 
complex needs, depending upon the severity of their injuries. The most 
significant unmet need of Veterans with TBI is identifying those with 
chronic symptoms secondary to mild TBI. VA implemented comprehensive 
TBI screening in April 2007 for Veterans returning from OEF/OIF to 
provide a systematic approach to identify and treat Veterans who may 
have experienced a brain injury. All OEF/OIF Veterans receiving medical 
care within VA who screen positive for possible TBI are provided a 
referral for follow-up by a TBI specialty team. Additionally, VA has 
executed a number of initiatives to ensure that Veterans and 
servicemembers with TBI receive follow up care for their medical and 
rehabilitation needs. These initiatives include: continued development 
in VA health facilities of the Polytrauma/TBI system of care and 
enhancement of clinical expertise in the area of TBI care; continued 
execution and enhancement of the TBI screening and evaluation program; 
implementation of a care management model that emphasizes care 
coordination and long-term follow-up; deployment of standardized 
national templates to document results of the TBI evaluation and the 
rehabilitation plan of care; and development of a proposal to revise 
the International Classification of Diseases 9th Revision (ICD-9) codes 
to improve the identification and classification of TBI.
    All OEF/OIF Veterans, including those with TBI, are also assessed 
to determine if the Veteran and family would benefit from care 
management services. If such needs are identified, a nurse or social 
worker care manager is assigned as the single point of contact to 
assist in coordinating care for the Veteran's complex health and 
psychosocial needs. VA is currently care managing 449 Veterans with 
TBI. VA recently initiated a5year pilot program to provide assisted 
living services for Veterans with severe TBI and is assessing the 
potential benefits of this program. VA is also establishing the care 
giver support program, to evaluate what support services or programs 
are needed to assist family members of Veterans needing long-term care. 
VA lacks statutory authority to provide care to family members of 
Veterans, and is working to identify whether additional legislative 
authorities are needed. We look forward to continuing to work with 
Congress to provide the most effective TBI care for Veterans.
    Question 10: VA has a fourth mission to serve as backup to the 
Department of Defense health care system in times of war or other 
emergencies, and in support of communities during and following 
incidents of terrorism and natural disasters. How do you see VA 
fulfilling its fourth mission?
    Response: Public Law 97-174 authorizes VA to provide hospital, 
nursing home, and outpatient care to active duty members of the armed 
forces during and immediately following involvement in armed conflicts 
during wartime and/or national emergencies. In addition, VA provides 
emergency support to the National Response Framework at the local, 
State and Federal level and the VA/DoD contingency hospital system. The 
primary focus of VA's 4th mission is continuity, more explicitly, the 
ability to perform the primary mission essential function (PMEF); 
providing health care to the Nation's Veterans and all mission 
essential functions (MEF); and those support services necessary to 
ensure VA maintains the ability to perform the PMEF regardless of the 
emergency or threat. VA accomplishes the 4th mission through a 
Comprehensive Emergency Management Program with attention to 
preparedness, response, recovery and mitigation. The Program has 4 
major components which evolve as do the emerging threats of the 21st 
century: (1) ensures the safety of Veterans, employees, volunteers and 
visitors during times of disasters, crisis and emergencies; (2) ensures 
continuity of operations/continuity of government (COOP/COG) for the 
whole Federal Government; (3) respond to an activation of the National 
Response Framework as a Federal partner; and (4) provides support to 
ensure VA can/will perform the PMEF/MEFs in each of the local areas 
where VA is an integral part of the health care and response community.
    VA, since the terrorist attacks of September 11, 2001, and more 
recently the unprecedented 2005 hurricane season, continues to refine 
efforts to plan for, respond to, recover from and where possible 
mitigate emergencies whether they be natural or man-made.
    Currently there are two entities within VA responsible for the 
emergency preparedness efforts: the Office of Operations, Security and 
Preparedness (OSP), established on April 4, 2006, under the authority 
of the VA Emergency Preparedness Act of 2002, Public Law 107-287; and 
the Emergency Management Strategic Healthcare Group (EMSHG) under VA's 
Veterans Health Administration (VHA).
    OSP ensures VA is aligned with all other Federal departments and 
adheres to Executive Order 12656, Assignment of Emergency Management 
Responsibilities. OSP ensures VA is in compliance with Homeland 
Security Presidential Directive (HSPD) 8, National Preparedness; and 
HSPD-5, Management of Domestic Incident, and that VA implements the 
national incident management system (NIMS). OSP coordinates VA's 
emergency management, preparedness, security and law enforcement 
activities to ensure VA can continue to perform its primary mission 
essential functions under a wide spectrum of threats.
    EMSHG is responsible for providing guidance and support to all VA 
medical facilities for emergency preparedness activities including the 
coordination with local and State entities. EMSHG ensures VHA 
continuity in providing health care to the Nation's Veterans regardless 
of the threat or emergency situation.
    In January 2008 the National Response Framework (NRF) replaced the 
National Response Plan. The NRF is a guide that details how the Nation 
conducts all-hazards response from the smallest incident to a large 
scale catastrophe. The NRF establishes a comprehensive, national 
approach to domestic incident response. The NRF describes how Federal, 
State and local government, and private and non-governmental partners 
apply incident management principles to ensure a coordinated, effective 
national response. The NRF divides overall response and recovery 
responsibilities into emergency support functions (ESF), VA has a 
supporting role in 7 of the 15 ESFs:

    ESF# 3-Public Works & Engineering
    ESF# 5-Emergency Management
    ESF# 6-Mass Care
    ESF# 7-Resource Support
    ESF# 8-Public Health & Medical
    ESF#13-Public Safety & Security
    ESF#15-Emergency Public Information & External Communications

    The NRF defines a catastrophic incident as any natural or man-made 
incident that results in large numbers of casualties, damage, or 
disruption severely affecting the population, infrastructure, 
environment, economy, national morale, and/or government functions. A 
catastrophic incident could result in impacts which exceed resources 
normally available to State, tribal, local, and private-sector 
authorities in the impacted area; and significantly interrupts 
governmental operations and emergency services to such an extent that 
national security could be threatened. VA plays a major role in the 
catastrophic incident supplement of the NRF. VA is intimately involved 
in the 15 national planning scenarios which are designed to prepare VA 
and the Nation for hurricanes, earthquakes, pandemic flu, smallpox, 
improvised nuclear devices, terrorist use of explosives, and terrorist 
attacks involving chemical and biological weapons. Subject matter 
experts in all VA's emergency support functions and the overall VA's 
Comprehensive Emergency Management Program provides national planners 
with guidance on public health, medical consequences of exposure to 
chemical, biological and radiological toxins, incident management and 
consequence management. The National Disaster Medical System (NDMS) was 
established in 1984 by agreement between DoD, Department of Health and 
Human Services (HHS), VA, and Federal Emergency Management Agency 
(FEMA), to provide the capability to treat large numbers of patients 
who are injured in a major peacetime disaster within the continental 
United States, or to treat casualties resulting from a conventional 
military conflict overseas.
    Forty-seven VA Medical Centers are designated as NDMS Federal 
Coordinating Centers (FCC) and these medical centers have the 
responsibility for the development, implementation, maintenance and 
evaluation of the local NDMS program. The director of the VA Medical 
Center serves as the FCC director.
    Hurricane Katrina saw the first-ever activation of the evacuation 
and definitive care components of NDMS. VA operated 17 of the18 FCC's 
activated and moved over 2,800 patients to 9 VA FCCs and 2 DoD FCCs. 
Most recently the NDMS was activated in response to Hurricane Ike and 7 
VA FCCs were ready to receive evacuees. In the 8 years since the 9/11 
attacks VA consistently continues to improve, update and provide 
innovative leadership in accomplishing the Department's 4th mission and 
ensuring a strong, state-of-the-art Comprehensive Emergency Management 
Program.
    To ensure VA continuity OSP develops and maintains the Department 
level continuity of operations plan (COOP). The COOP has been recently 
transformed to reflect an ``all hazards'' approach to continuity and 
adheres to the integrated planning system (IPS). The IPS allows for 
plan refinement and proper execution to reflect developments in risks, 
capabilities, policies and the incorporation of lessons learned from 
exercises and specific events. The outcomes are an enhanced, efficient 
and effective combination of policies, standard operating procedures, 
supported by the latest technology that provides a capability to plan 
and conduct integrated joint VA level incident management. VA programs 
in place to ensure VA exceeds all federally mandated preparedness 
directives, executive orders, and national standards are as follows:

    <bullet>  Crisis Response Team (CRT). The CRT is VA's coordinating 
entity during emergencies and disaster response and recovery efforts. 
The CRT's primary function is to support Department-level operations 
during an emergency and serves as the focal point for operational 
coordination of an incident. The CRT meets weekly to discuss and 
provide Department-level situational awareness on all possible threats 
and/or developing events that may impact the Department's continuity 
capabilities.
    <bullet>  VA Central Office Operations Center (VAOC). The VAOC 
serves as the central coordination point for the Department's common 
operating picture (COP) providing situational awareness and real time 
information on all natural and man-made threats to VA's continuity. The 
VAOC is a 24/7; national incident management system operation with 
full-time watch officers trained in state-of-the-art communications 
equipment, geographic information systems (GIS), alert systems and data 
storage systems. In addition, the VAOC maintains daily contact with VA 
liaison officers (LNOs) stationed at Health and Human Services, 
security operations center (SOC), the national operations center (NOC), 
the Federal Emergency Management Administration's national response 
coordination center (NRCC) and the Department of Homeland Security's 
incident management planning team (IMPT).
    <bullet>  VA Joint Operations Center (VA JOC). The VA JOC is the 
Departmental strategic, tactical, and integrated operations center 
responsible for coordination of VA resources in an inter/intra-agency, 
multi-event environment. The VA JOC is activated in preparation for a 
specific event (hurricane landfall, national special security event, 
mass gatherings, exercises, training, etc.) and in emergent situations 
where there is a need to ensure Department continuity in performing the 
primary mission essential function and mission essential functions. The 
primary focus of the VA JOC is incident management through centralized 
communication synchronization, coordination and information management.
    <bullet>  National Security Presidential Directive 51/Homeland 
Security Presidential Directive 20 (NSPD-51/HSPD-20). National 
continuity policy focuses on the continuity of Federal Government 
establishing the ``national essential functions.'' The policy 
prescribes continuity requirements for all executive departments/
agencies, and provides guidance for State, local, territorial, tribal 
governments and private sector organizations, enabling a more rapid and 
effective response to and recovery from a national emergency. VA 
maintains continuity of operations sites fully capable of ensuring VA 
can function and maintain operations in its primary mission essential 
function and mission essential functions. The primary continuity sites 
are:

     Site A--VAOC--focused on helping Veterans, visitors and employees 
prepare before an event strikes.

        <bullet>  24/7 operations center/crisis response team
        <bullet>  Homeland security liaison desk--NOC

     Site B--Primary COOP Site--In the event of an evacuation of 
Washington DC, Martinsburg VA Medical Center (VAMC) takes on additional 
responsibilities to support the VA primary COOP site.

        <bullet>  VHA, Veterans Benefit Administration (VBA), National 
Cemetery Administration (NCA), and key staff offices
        <bullet>  24/7 on call staffing

     Site C--Secondary COOP Site

        <bullet>  Primary VA central office reconstitution site
        <bullet>  Backup to site B

     Site D--Classified Site

        <bullet>  24/7 activity
        <bullet>  VA presence

     Site E--VA Devolution Site

        <bullet>  Senior regional officials (out of sector)

    <bullet>  Capital Region Readiness Center (CRRC) The CRRC is a 
congressionally appropriated $35 million project to co-locate mission 
critical Office of Information and Technology infrastructure and VA 
continuity of operations/continuity of government (COOP/COG) functions 
on the Martinsburg, WV, VAMC campus. A 66,000 square foot data and 
COOP/COG center, to be completed by June, 2010. The state-of-the-art 
data center is one of four in the Nation, and will provide redundant 
ultra high speed fiber optics data capability, significant server 
numbers, and enhanced secure communications.
    <bullet>  Sensitive Compartmented Information Facility (SCIF). VA 
opened its first SCIF designed to ensure VA maintains the ability to 
communicate with all government entities when classified and/or 
sensitive information is shared that may impact the Nation, the 
Department and the overall ability of VA to meet its 4th mission 
requirements.
    <bullet>  Pharmaceutical Cache Reserves. VA maintains 143 
pharmaceutical cache reserves of different sizes designed to ensure VA 
personnel/families, Veterans, volunteers and family members receive the 
proper treatment in the event of a national, State or local event that 
compromises the health care delivery infrastructure. The cache reserves 
are capable of treating 1,000 or 2,000 patients for at least 48 hours. 
The entire program is managed through a centralized database to 
guarantee a rapid, coordinated response.
    <bullet>  VA Medical Center Decontamination Program. VA maintains a 
hospital decontamination program that provides yearly training, 
equipment and response capabilities designed to protect the VA health 
care infrastructure, VA employees, Veterans, visitors from any threat 
to the safe and healthy environment of a VA medical center. 
Decontamination capabilities are available at 134 VA medical centers.
    <bullet>  Emergency Radiological Response Team (MERRT). 
Presidential Executive Order 12657 (1988) requires both VA and DoD to 
use their medical resources to respond to nuclear power plant 
accidents. As a result, VA created the MERRT. The MERRT is a highly 
trained team of 23 individuals made up of nuclear medicine physicians 
and health physicists strategically located throughout the Continental 
United States and Puerto Rico. The team is equipped with the latest 
state-of-the-art detection equipment, decontamination equipment and 
receives yearly training on the treatment of radiation exposure and 
contamination. In the event of an accidental or deliberate release of 
radiation into the environment and at the request of FEMA, the team can 
deploy within 6 hours and be self-contained for the first 72 hours of 
the deployment. The team will assist with the diagnosis, detection and 
treatment of radiation injuries and illnesses.
    <bullet>  Disaster Emergency Medical Personnel System (DEMPS). 
DEMPS is a database which contains specific information on VA medical 
personnel and those with special skills who have volunteered and been 
approved by VA leadership to be deployed in the event of a disaster. In 
response to a Federal request for assistance the DEMPS database 
provides a coordinated and efficient way of identifying the appropriate 
personnel necessary to meet mission requirements. DEMPS currently 
boasts 5,000 volunteers across the VA infrastructure. DEMPS has been 
used extensively during federally declared disasters where VA has been 
required to provide Federal assistance to FEMA and HHS.
    <bullet>  Very Small Aperture Terminal (VSAT). The VSAT is a mobile 
satellite communications system that has been developed in response to 
communications difficulties encountered when communication 
infrastructure was destroyed due to Hurricane Katrina landfall. VA 
currently has 40 active VSATs; 34 case based (portable) and 6 vehicle 
mounted, and an additional 62 VSATs will be on board during 2009, 10 
case based, 2 vehicle mounted and 50 to support veterans service 
centers. VSATs provide an infrastructure platform to support voice, 
video and data services, more specifically:

        1.  Voice
        2.  Video conferencing
        3.  Telemedicine
        4.  Printing
        5.  Internet access
        6.  Veterans integrated service technical architecture (VistA) 
access
        7.  E-mail access
        8.  Computerized patient record system (CPRS)

    <bullet>  Deployable Disaster Response Units. VA has deployable 
disaster response units to ensure continuity in the field and provide 
an operating base for any VA personnel responding to and recovering 
from a catastrophic disaster.

    1.  Deployable Medical Unit (DMU)--VA has two 45-foot DMUs designed 
as fully self-contained medical units capable of serving as a walk-in 
community based clinics.
    2.  Mobile Pharmacy Unit (MPU)--The MPU is a 45-foot fully self-
contained pharmacy unit that can be deployed to the field to support a 
DMU or augment a VA medical center's capabilities during a disaster or 
emergency.
    3.  Response Support Unit (RSU)--VA has four 45-foot RSUs designed 
as fully self-contained command units capable of being deployed to 
support field operations or augment a VA medical center's response and 
recovery efforts.
    4.  6-Man Barracks Unit--VA maintains a fully self-contained 
barracks unit that can be deployed to support any field operations and 
provide living quarters for field teams.
    5.  Mobile Housing Units--VA has 18 mobile housing units in its 
deployable inventory, these units are fully self-contained and capable 
of sleeping 10 individuals.
    6.  Hygiene Units--VA maintains 2 fully self-contained hygiene 
units which offer shower and commode capabilities to support any field 
operation.

    <bullet>  Blanket Purchase Agreements (BPA). VA encountered 
problems throughout the recovery efforts during the 2005 hurricane 
season in securing fuel (gas/diesel), building supplies, office 
supplies, home goods and variety of basic items required to ensure the 
health and safety of Veterans, VA employees, family members, volunteers 
and others depending on VA. Therefore, VA developed BPAs with major 
suppliers to ensure priority deliveries for VA's in need. The BPAs 
cover the following areas:

        1.  Airlift evacuation (patients/staff/families)
        2.  Defense energy support center (fuel oil, diesel and 
unleaded gas)
        3.  Ground transportation (moving large numbers of people and/
or deployed personnel)
        4.  Lodging (ensures VA employees have housing in the event of 
a deployment or housing has been destroyed)
        5.  Industrial supplies
        6.  Hardware/home goods supplies
        7.  Office supplies

    <bullet>  Exercise, Training and Evaluation. VA conducts yearly 
training exercises that concentrate on COOP/COG and the ability to 
perform VA's primary mission essential function, mission essential 
functions and all areas necessary to ensure the safety of all VA 
employees, Veterans, family members, volunteers and visitors.
    In summary, VA remains prepared and ready to respond to the Nation 
during or immediately after a disaster or catastrophic emergency. OSP 
oversees the daily operations and planning for the Department's 
comprehensive emergency management program (CEMP). OSP through the CEMP 
ensures all areas of VA continue to improve, expand and adhere to a 
heightened state of readiness all focusing on providing leadership, 
support and expertise in accomplishing the 4th mission of VA.

                                 <F-dash>

                                      Congress of the United States
                                           House of Representatives
                                                    Washington, DC.
                                                   March 31st, 2009

Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue
Washington, D.C. 20420
Dear Secretary Shinseki:
    Thank you again for your appearance before the House Veterans' 
Affairs Committee on February 4th, 2009, to discuss the ``State of the 
VA.'' I personally believe that you are the right man for the job and 
have the right vision for the future of the VA. I look forward to 
developing a fruitful relationship with you over the course of the 
111th Congress.
    I appreciate your responses to my follow-up questions based on that 
hearing. However, there were a few points made that begged further 
questions to which I feel I need some more details, specifically in 
reference to the Public Law 110-387, section 403 Pilot Program to 
provide covered health services to eligible veterans through qualified 
non-VA health care providers in select Veteran Integrated Service 
Networks (VISNs).
    The first question is a simple clarification. The response stated 
that VISN 18 is ``one of the eligible locations for this pilot.'' It 
was made clear to me that VISN 18 was indeed one of the VISNs selected 
for the pilot program, whereas this response seems to indicate that it 
may not actually be one of the selected VISNs, only an eligible one. 
Please clarify if VISN 18 has been selected or if the selection process 
is still to be finalized.
    The second and third questions refers to the following statement in 
the VA response: ``There are two major issues that impact timely 
implementation of this pilot program. The first issue concerns the 
development of regulations to define the hardship provision in section 
403(b)(2)(B). The second issue is that the definition of highly rural 
in the statute is different from VA's definition.''
    I understand the first issue may prove cumbersome, but I am 
interested to know what obstacles you see in the development of 
regulations to define the hardship listed in the provision. It seems at 
first glance that it would be a case-by-case determination with 
delegated authority to some level to make the decision if a particular 
veteran meets such a hardship. But again, since it was listed 
generically in the response, I am interested to know what the 
difficulties are in the definition.
    With reference to the second issue, I am also interested to hear 
the VA's definition of highly rural and how it differs from the statute 
definition, and of course, why that is a problem given the definition 
is made clear in the statute for the purposes of that specific 
provision. Your thoughts and the issues referenced would be helpful to 
me.
    As the public law states, the pilot program was to commence 120 
days after the date of the enactment of the public law (October 10th, 
2008). My constituents are growing anxious, as are all rural vets, to 
find out details of this program and see its implementation. It is 
particularly important to my district as we have no VA facilities at 
all in the 23rd District of Texas between San Antonio and El Paso. I 
know you are well aware of this and are working as hard as possible to 
get this program up and running.
    I thank you for your time and appreciate your efforts in providing 
clarification to the issues raised in your response. Thank you for your 
attention to this matter.

            Sincerely,
                                                  Ciro D. Rodriguez
                                                 Member of Congress
Cc: Chairman Filner
Ranking Member Buyer

                               __________

                                  The Secretary of Veterans Affairs
                                                    Washington, DC.
                                                       May 28, 2009

Hon. Ciro D. Rodriguez
U.S. House of Representatives
Washington, DC 20515
Dear Congressman Rodriguez:
    Thank you for your letter requesting additional information 
regarding Public Law 110-387, section 403, pilot program to provide 
covered health services to eligible Veterans through qualified non-
Department of Veterans Affairs (VA) health care providers. I apologize 
for the delayed response.
    Veterans Integrated Service Network (VISN) 18 is one of the 
locations where a pilot program will be conducted. However, the site 
for the pilot program within the VISN has yet to be determined. Pilot 
sites will be selected based on a number of factors, including the 
potential number of Veterans who are eligible to participate in the 
pilot program and the presence of non-VA providers willing and able to 
participate.
    One of the issues impacting timely implementation is the hardship 
provision found in (b)(2)(B). The challenge is not related to defining 
the hardship provision but rather the requirement to go through the 
Federal regulations process. This process involves coordinating with 
and receiving approval from the Office of Management and Budget, and 
publishing the proposed hardship definition in the Federal Register 
along with a comment period. From past experience with the regulations 
process, we anticipate this process can take from 20-24 months.
    Another issue that will have an effect on the timely implementation 
of the pilot program involves how the term highly rural Veteran is 
defined. The statute definition of highly rural is different than the 
VA definition. Based on the statute, Veterans are identified as highly 
rural if they live more than 60 miles from a VA facility for primary 
care, more than 120 miles from a VA facility for acute care, or more 
than 240 miles from a VA facility for tertiary care. VA, however, 
defines a highly rural Veteran as those who reside in counties with 
less than 7 residents per square mile.
    Because the statute uses a different definition of highly rural 
than VA, VA will need to re-configure data systems and analyses to 
identify travel distances for each enrollee for multiple VA facilities, 
conduct analyses to identify eligibility according to the section 403 
definition, and develop enrollment and utilization projections for the 
pilot using the new eligibility definition.
    VA continues to work diligently on this pilot program and looks 
forward to keeping you apprised on the status of these efforts. I 
appreciate your continuing support of our mission.

            Sincerely,
                                                   Eric K. Shinseki

                                 <all>

</pre></body></html>
